1a
APPENDIX A
United States Court of Appeals
for the Federal Circuit
______________________
KEVIN R. GEORGE,
Claimant-Appellant
v.
DENIS MCDONOUGH, SECRETARY OF
VETERANS AFFAIRS,
Respondent-Appellee
______________________
2019-1916
______________________
Appeal from the United States Court of Appeals
for Veterans Claims in No. 16-2174, Chief Judge
Margaret C. Bartley, Judge Amanda L. Meredith,
Senior Judge Robert N. Davis.
---------------------------------------------MICHAEL B. MARTIN,
Claimant-Appellant
v.
DENIS MCDONOUGH, SECRETARY OF
VETERANS AFFAIRS,
Respondent-Appellee
______________________

2a
2020-1134
______________________
Appeal from the United States Court of Appeals
for Veterans Claims in No. 18-124, Chief Judge
Margaret C. Bartley.
______________________
Decided: March 16, 2021
______________________
KENNETH M. CARPENTER, Law Offices of
Carpenter Chartered, Topeka, KS, argued for
claimant-appellant Kevin R. George.
AMY F. ODOM, Chisholm Chisholm & Kilpatrick,
Providence, RI, argued for claimant-appellant
Michael B. Martin. Also represented by APRIL
DONAHOWER, ZACHARY STOLZ.
TANYA KOENIG, Commercial Litigation
Branch, Civil Division, United States Department of
Justice,
Washington,
DC,
argued
for
respondent-appellee. Also represented by ERIC P.
BRUSKIN, JEFFREY B. CLARK, MARTIN F.
HOCKEY, JR., ROBERT EDWARD KIRSCHMAN,
JR.; BRIAN D. GRIFFIN, ANDREW J. STEINBERG,
Office of General Counsel, United States Department
of Veterans Affairs, Washington, DC.
______________________
Before LOURIE, CHEN, and STOLL, Circuit
Judges.
CHEN, Circuit Judge.

3a
Kevin R. George and Michael B. Martin
(collectively, Appellants) are military veterans whose
respective claims for disability benefits were denied
several decades ago in final decisions by the
Department of Veterans Affairs (VA). More recently,
Appellants each filed a motion for revision of those
denial decisions, alleging that the VA in those
decisions had committed clear and unmistakable
error (CUE). The VA’s denials had been based in part
on a straightforward application of a then-existing
regulation, 38 C.F.R. § 3.304(b) (“Presumption of
soundness”), that was years later overturned. In
Appellants’ view, the VA’s reliance on a
now-invalidated regulation in its denials of
Appellants’ original claims establishes CUE.
The United States Court of Appeals for Veterans
Claims (Veterans Court) affirmed the Board of
Veterans’ Appeals’ (Board) denials of Appellants’
CUE motions, reasoning that the VA did not commit
a clear and unmistakable legal error when it
faithfully applied the version of the presumption of
soundness regulation that existed at the time of the
denials. Because Jordan v. Nicholson and Disabled
American Veterans v. Gober establish that a
legal-based CUE requires a misapplication of the law
as it was understood at that time, and cannot arise
from a subsequent change in interpretation of law by
the agency or judiciary, we affirm. See Jordan v.
Nicholson, 401 F.3d 1296 (Fed. Cir. 2005); Disabled
Am. Veterans v. Gober, 234 F.3d 682 (Fed. Cir. 2000)
(DAV), overruled in part on other grounds by Nat’l
Org. of Veterans’ Advocates, Inc. v. Sec’y of Veterans
Affairs, 981 F.3d 1360, 1373 (Fed. Cir. 2020) (en
banc).

4a
BACKGROUND
These companion appeals involve similar facts
and legal issues. Before discussing the details of each
case, we first address the statutory presumption of
soundness at issue in both appeals.
A. Statutory Presumption of Soundness
The statutory presumption of soundness recites:
[E]very veteran shall be taken to have been in
sound condition when examined, accepted,
and enrolled for service, except as to defects,
infirmities, or disorders noted at the time of
the examination, acceptance, and enrollment,
or where clear and unmistakable evidence
demonstrates that the injury or disease
existed before acceptance and enrollment and
was not aggravated by such service.
38 U.S.C. § 311 (1970) (now codified as 38 U.S.C.
§ 1111)1 (emphasis added). Under this standard, a
veteran is presumed to have been in sound condition
at entry to service as to disorders that are not
identified on the veteran’s entrance medical
examination. The presumption, however, can be
rebutted by “clear and unmistakable evidence” that
the disorder “existed before acceptance and
enrollment and was not aggravated by service.” Id.

For ease of reference, we hereafter refer to the statutory
presumption of soundness as 38 U.S.C. § 1111.
1

5a
In 1970, the VA’s implementing regulation for
§ 1111 did not require clear and unmistakable
evidence of lack of aggravation by service for rebuttal.
See 38 C.F.R. § 3.304(b) (1970). 2 In other words, for
the VA to rebut the presumption of soundness, the
1970 version of § 3.304(b) required only clear and
unmistakable evidence that the disorder “existed
prior [to service].” Id. This version of the regulation
prevailed until 2003, when the VA invalidated the
regulation for conflicting with the language of § 1111,
see VA Gen. Counsel Prec. 3-2003 (July 16, 2003)
(2003 OGC opinion), and subsequently amended the
regulation to require evidence of both preexisting
condition and no aggravation, see 70 Fed. Reg. 23,027,
23,028 (May 4, 2005).
We confirmed the correctness of the VA’s changed
understanding of the statute in Wagner v. Principi,
370 F.3d 1089 (Fed. Cir. 2004). There, we began our
statutory analysis by acknowledging that § 1111’s
“rebuttal standard is somewhat difficult to parse” and
“on
its
face … appears
to
be
somewhat
self-contradictory.” Id. at 1093. After a careful
2 Specifically, 38 C.F.R. § 3.304(b) (1970) stated: The veteran will
be considered to have been in sound condition when examined,
accepted and enrolled for service, except as to defects,
infirmities, or disorders noted at entrance into service, or where
clear and unmistakable (obvious or manifest) evidence
demonstrates that an injury or disease existed prior thereto. Only
such conditions as are recorded in examination reports are
considered as noted.

Id. (emphasis added). This language remained unchanged from
the time of Mr. Martin’s 1970 regional office decision to
Mr. George’s 1977 Board decision.

6a
examination of the statutory history, we determined
that Congress intended for the presumption of
soundness to apply “even when there was evidence of
a preexisting condition, [so long as] the government
failed to show clear and unmistakable evidence that
the preexisting condition was not aggravated” by
service. Id. at 1096. Wagner thus held that the VA
must show “clear and unmistakable evidence of both
a preexisting condition and a lack of in-service
aggravation to overcome the presumption of
soundness.” Id.
B. Mr. George’s Appeal
Mr. George served in the U.S. Marine Corps from
June to September 1975. His medical entrance
examination made no mention of any psychiatric
disorders. Yet, a week after enlistment, Mr. George
suffered a psychotic episode requiring extended
hospitalization and was diagnosed with paranoid
schizophrenia. Two months into his service, a military
medical board confirmed the schizophrenia diagnosis
and found Mr. George unfit for duty. The medical
board determined that his condition had preexisted
service because he had experienced “auditory
hallucinations, paranoid ideas of reference, and
delusions” prior to enlistment. J.A. 53-54. The
medical board also determined that his condition was
aggravated by service, observing that he “now
appeared quite disturbed” and was “withdrawn [and]
tearful.” Id. At his time of discharge, however, a
physical evaluation board concluded that his
condition was not aggravated by service, finding that
Mr. George
“essentially
appear[ed]
in
his

7a
pre-enlistment state” and that his schizophrenia was
“in remission.” J.A. 55.
In December 1975, Mr. George filed a disability
benefits claim, contending that his schizophrenia was
aggravated by service. The VA regional office (RO)
denied his claim for lack of service connection, which
the Board affirmed in September 1977. While the
Board did not specifically cite the statutory
presumption of soundness or the implementing
regulation, it concluded that his schizophrenia
“existed prior to military service” and “was not
aggravated by his military service.” J.A. 60.
Mr. George did not appeal the Board’s decision, which
became final.
Years later, in December 2014, Mr. George
requested revision of the 1977 Board decision based
on CUE, asserting that the Board had failed to
correctly apply 38 U.S.C. § 1111. Mr. George argued
that he had been improperly denied the presumption
of soundness because his “entrance examination to
service was negative for any preservice mental
disorder” and the record “[did] not clearly and
unmistakably indicate that [his] schizophrenia was
not aggravated by service.” J.A. 66-67. If not for the
1977 Board’s purported failure to “rebut both prongs
of the presumption,” Mr. George alleged that he
would have been granted service-connected benefits
for schizophrenia. J.A. 67 (emphasis added).
The Board, in 2016, denied Mr. George’s request,
finding no CUE in the 1977 Board decision. Relevant
to this appeal, the Board observed that, as of 1977, 38
C.F.R. § 3.304(b) did “not require[] clear and

8a
unmistakable evidence that the disability was not
aggravated by service” to rebut the presumption of
soundness. J.A. 73. While acknowledging that the
2003 OGC opinion and Wagner later invalidated
§ 3.304(b) for conflicting with the statute, the Board
concluded that “judicial decisions that formulate new
interpretations of the law subsequent to a VA decision
cannot be the basis of a valid CUE claim.” J.A. 74.
Thus, any purported failure by the 1977 Board to find
that Mr. George’s schizophrenia was not clearly and
unmistakably aggravated by service “cannot be
considered to be CUE.” Id. Mr. George appealed to the
Veterans Court.
A divided panel of the Veterans Court affirmed,
concluding that Wagner’s interpretation of § 1111
could not retroactively apply to establish CUE in the
1977 Board decision. See George v. Wilkie, 30 Vet.
App. 364, 373 (2019) (“Wagner does not change how
[§ 1111] was interpreted or understood before it
issued.”). Instead, citing this court’s decisions in DAV
and Jordan, the Veterans Court determined that the
1977 Board was required to apply the law existing at
the time, namely, the 1977 version of 38 C.F.R.
§ 3.304(b). Because that version of § 3.304(b) required
only clear and unmistakable evidence that an injury
preexisted service to rebut the presumption of
soundness, the Veterans Court concluded that the
1977 Board’s alleged failure to also demonstrate clear
and unmistakable evidence of no aggravation did not
constitute CUE. Id. at 374-75.
The Veterans Court next considered a trio of cases
involving a CUE claim filed by a widow, Mrs. Patrick,
seeking death and indemnity compensation benefits.

9a
See Patrick v. Principi, 103 F. App’x 383 (Fed. Cir.
2004) (Patrick I); Patrick v. Nicholson, 242 F. App’x
695 (Fed. Cir. 2007) (Patrick II); Patrick v. Shinseki,
668 F.3d 1325 (Fed. Cir. 2011) (Patrick III). As
relevant here, Patrick II concluded that Wagner could
form the basis for a CUE claim attacking a final VA
decision that had relied on the now-invalidated
version
of
§ 3.304(b),
because
“[Wagner’s]
interpretation of § 1111 … did not change the law but
explained what § 1111 had always meant.” Patrick II,
242 F. App’x at 698.
The Veterans Court determined that it was not
bound by the Patrick cases, which contradicted the
reasoning of DAV and Jordan. George, 30 Vet. App. at
374-75. Patrick II, the main case supporting
Mr. George’s position, was nonprecedential and
issued after DAV and Jordan, and Patrick III, the
only precedential opinion in this line of cases,
pertained to attorneys’ fees under the Equal Access to
Justice Act (EAJA) and did not directly address
whether Wagner supports a basis for CUE.
The Veterans Court also determined that
permitting retroactive application of Wagner’s
statutory interpretation would contravene the law on
finality of judgments. While recognizing that “CUE is
a statutorily permitted collateral attack on final VA
decisions,” the court observed that “Mr. George’s
appeal of the denial of benefits for schizophrenia was
not open for direct review when Wagner was decided,”
and to hold that a judicial pronouncement of the law
retroactively applies to final decisions closed to direct
review would undermine long-standing principles of
finality and res judicata. George, 30 Vet. App. at

10a
372-73, 376 (citing Harper v. Va. Dep’t of Taxation,
509 U.S. 86 (1993) and James B. Beam Distilling Co.
v. Georgia, 501 U.S. 529 (1991)). CUE instead
requires “the application of the law as it was
understood at the time of the [underlying] decision,”
and such an application of law “does not become CUE
by virtue of a subsequent interpretation of the statute
or regulation.” George, 30 Vet. App. at 373. 3
A dissenting judge opined that Wagner merely
provided an “authoritative statement” of what § 1111
has always meant and thus should not be understood
as implementing a “new understanding or
interpretation” of that statute. Id. at 379. The dissent
further concluded that the 1977 Board’s failure to
abide by § 1111’s true meaning “constituted an
undebatable
and
outcome-determinative
misapplication of the law,” which is “precisely” the
type of error CUE was designed to remedy. Id. at 383.
C. Mr. Martin’s Appeal
Mr. Martin served in the U.S. Army from August
1965 to February 1966, and from June 1968 to August
1969. At entry to service, Mr. Martin reported never
having had “asthma,” “shortness of breath,” or “hay
The Veterans Court majority also concluded that even
assuming Wagner retroactively applies to support allegations of
CUE in final VA decisions, Mr. George failed to demonstrate that
this alleged error, based on the evidence extant in 1977, would
have manifestly changed the outcome of the 1977 Board’s
decision to deny him benefits for schizophrenia. George, 30 Vet.
App. at 377-78. Because we conclude that the error alleged is
outside the scope of CUE, as discussed infra, we need not reach
this alternative holding.
3

11a
fever,” J.A. 13, and his medical examination reported
his lungs and chest as “normal,” J.A. 15. During his
second period of service, in November 1968, he sought
treatment at an allergy clinic for a stuffy nose,
sneezing, itchy eyes, and nocturnal wheezing.
Contrary to his entrance examination, Mr. Martin
reported a childhood history of asthma with similar
symptoms. A note from his personal physician, dated
January 1969, confirmed that Mr. Martin had started
treatment for asthma as a child and had been “treated
for this problem intermittently since that time.” J.A.
10. A medical examiner diagnosed and treated
Mr. Martin for “rhinitis and asthma, mixed
infectious-allergic, with dust-mold and ragweed
sensitivity.” J.A. 11. By discharge, however, his
separation examination did not report any asthma or
related symptoms.
Shortly thereafter, in October 1969, Mr. Martin
filed a claim for service-connected disability benefits
for asthma. In support of his claim, Mr. Martin
underwent a VA medical examination in December
1969, which noted that he had “made a good
adjustment” following in-service treatment, but upon
returning home after discharge, had experienced
wheezing and shortness of breath during the ragweed
season. J.A. 21. Mr. Martin was diagnosed with
“[a]sthma due to sensitivity of ragweed class.” J.A. 24.
The RO denied Mr. Martin’s claim in February
1970 for lack of service connection. The RO found that
following Mr. Martin’s November 1968 treatment at
the allergy clinic, there was “no further showing of
complaints relative to asthma in service and [the]
separation examination was negative.” J.A. 26. While

12a
acknowledging that Mr. Martin had reported asthma
symptoms in his December 1969 medical examination
four months after service, the RO concluded that: “In
view of the pre-service history of asthma[,] it is held
that the solitary exacerbation in service with a
subsequent asymptomatic period of better than a year
does not establish aggravation.” J.A. 25-26.
Mr. Martin did not appeal the RO decision.
In July 2013, Mr. Martin requested revision of the
1970 RO decision based on CUE, contending that the
RO had failed to correctly apply “both” prongs of 38
U.S.C. § 1111. J.A. 27-28. As with Mr. George’s case,
the Board denied the request, finding no CUE in the
1970 RO decision because the regulation in force at
that time did not require clear and unmistakable
evidence of no aggravation. J.A. 39-40. Citing George,
the Veterans Court affirmed the Board’s decision:
The denial of service connection in George,
like the RO’s denial here, predated the
Federal Circuit’s decision in Wagner v.
Principi …. George held that Wagner does not
apply retroactively to final decisions and
affirmed the Board’s finding that the VA
decision did not contain CUE. The Court must
reach the same conclusion here and affirm the
Board’s … finding that the February 1970
rating decision does not contain CUE.
Martin v. Wilkie, No. 18-0124, 2019 WL 3449689, at
*3 (Vet. App. July 31, 2019) (citations omitted).

13a
Both Mr. George and Mr. Martin timely appealed
to this court. We have jurisdiction under 38 U.S.C.
§ 7292.
DISCUSSION
Our jurisdiction to review decisions of the
Veterans Court is prescribed by statute. Scott v.
Wilkie, 920 F.3d 1375, 1377-78 (Fed. Cir. 2019). We
may “review and decide any challenge to the validity
of any statute or regulation or any interpretation
thereof” and “interpret constitutional and statutory
provisions, to the extent presented and necessary to a
decision.” 38 U.S.C. § 7292(c). We review claims of
legal error in a decision of the Veterans Court without
deference. See Szemraj v. Principi, 357 F.3d 1370,
1374-75 (Fed. Cir. 2004).
A motion for revision based on “clear and
unmistakable error” is a statutorily authorized
collateral attack on a final decision of the Board or RO
that, if successful, results in a “reversed or revised”
decision having “the same effect as if [it] had been
made on the date of the [original] decision.” See 38
U.S.C. §§ 7111, 5109A. 4 In other words, a meritorious
CUE claimant may be entitled to benefits retroactive
to the date of the original claim. CUE, however, is a
“very specific and rare type of error,” Cook v. Principi,
318 F.3d 1334, 1345 (Fed. Cir. 2002) (en banc), and
must be based on “the record and the law that existed
at the time of the prior adjudication in question,” such
38 U.S.C. § 7111 governs CUE arising from a Board decision
whereas § 5109A governs CUE arising from an RO decision.

4

14a
that “[e]ither the correct facts, as they were known at
the time, were not before the adjudicator or the
statutory or regulatory provisions extant at the time
were incorrectly applied,” see Willsey v. Peake, 535
F.3d 1368, 1371 (Fed. Cir. 2008) (emphases added)
(citing Russell v. Principi, 3 Vet. App. 310, 313-14
(1992) (en banc)). CUE must also be an “undebatable”
error that would have “manifestly changed the
outcome at the time it was made.” Willsey, 535 F.3d
at 1371.
A
Appellants first contend that their CUE claims do
not seek to retroactively apply a changed
interpretation of the law and, instead, are simply
premised on the VA’s purported failure to correctly
apply the statute as written. Appellants assert that
§ 1111’s meaning is plain and unambiguous,
regardless of the VA’s contrary interpretation set
forth at the time in § 3.304(b). Rather than establish
a “new” interpretation of § 1111, Appellants argue
that Wagner “merely provided an authoritative
statement of what [§ 1111] had always meant,”
including at the time of Appellants’ respective VA
decisions. See Martin Appellant’s Br. 8 (internal
quotation marks omitted) (citing Rivers v. Roadway
Exp., Inc., 551 U.S. 298, 313 n.12 (1994)). This
reasoning, Appellants contend, comports with our
nonprecedential decision in Patrick II, where we
permitted a CUE claim to proceed based on the
argument that the VA had “misapplied § 1111.” See
Patrick II, 242 F. App’x at 698.

15a
We disagree with Appellants’ argument because
it overlooks the significance of the VA’s regulation
that existed at the time of the original decisions and
fails to account for our caselaw. Jordan, in view of
DAV, squarely forecloses Appellants’ argument that
Wagner’s later-in-time interpretation of § 1111 can
serve as the basis for CUE. DAV upheld, over
rulemaking challenge, the validity of CUE regulation
38 C.F.R. § 20.1403(e), which expressly states that
CUE “does not include the otherwise correct
application of a statute or regulation where,
subsequent to the Board decision challenged, there
has been a change in the interpretation of the statute
or regulation.” See DAV, 234 F.3d at 695-98 (emphasis
added).5 In analyzing the regulation’s specific
carve-out of subsequent, changed interpretations as a
basis for CUE, we clarified that “[t]he new
interpretation of a statute can only retroactively
38 C.F.R § 20.1403 governs CUE in Board decisions, whereas
38 C.F.R. § 3.105 governs CUE in RO decisions. We note that in
2019, § 3.105 was amended to include subsection (a)(1)(iv),
which mirrors the language of § 20.1403(e). See VA Claims and
Appeals Modernization, 84 Fed. Reg. 138 (Jan. 18, 2019) (final
rule). In promulgating § 3.105(a)(1)(iv), the VA explained that
“no substantive changes [were] intended to the existing law
governing revision of final [RO] decision based on CUE,” see VA
Claims and Appeals Modernization, 83 Fed. Reg. 39,818, 39,820
(Aug. 10, 2018) (notice of proposed rulemaking), and the purpose
of the amendment was to “conform[]” the regulation governing
CUE in final RO decisions with the existing regulation governing
final Board decisions, 84 Fed. Reg. at 142. Mr. Martin
acknowledges that the substance of § 3.105(a)(1)(iv) applies to
his appeal, see Martin Appellant’s Reply Br. 6 n.2, and makes no
attempt to distinguish DAV and Jordan based on the governing
CUE regulation (§ 20.1403 vs. § 3.105) or statute (§ 7111 vs.
§ 5109A).
5

16a
[a]ffect decisions still open on direct review, not those
decisions that are final.” Id. at 698. This limit on
CUE, we explained, is consistent with Congress’
intent that “changes in the law subsequent to the
original adjudication … do not provide a basis for
revising a finally decided case.” Id. at 697-98. DAV
thus established that CUE must be analyzed based on
the law as it was understood at the time of the original
decision and cannot arise from a subsequent change
in the law or interpretation thereof to attack a final
VA decision.
Jordan
subsequently
applied
DAV’s
understanding of CUE to the statutory presumption
of soundness. There, in 1983, the Board denied
Mr. Jordan’s benefits claim for lack of service
connection under then-governing 38 C.F.R.
§ 3.304(b)—the same version of the regulation that
was applied to Appellants’ original claims. See
Jordan, 401 F.3d at 1297. Mr. Jordan never appealed
the Board’s decision, which became final. Several
years later, in 1999, Mr. Jordan filed a CUE claim
asserting that the 1983 Board had “misinterpreted
provisions in 38 U.S.C. § 1111.” Id. Like Appellants,
Mr. Jordan claimed that § 1111’s presumption of
soundness had not been rebutted because the 1983
Board had failed to establish that his preexisting
condition was not aggravated by service. The Board
denied his CUE claim, and Mr. Jordan then appealed
to the Veterans Court. While his Veterans Court
appeal was pending, the VA issued its 2003 OGC
opinion invalidating 38 C.F.R. § 3.304(b) for
conflicting with § 1111. Nevertheless, the Veterans
Court found no CUE because, as DAV held, CUE
“does not include the otherwise correct application of

17a
a statute or regulation” where there has been a
subsequent “change in the interpretation of [that]
statute or regulation.” Id. On appeal before us,
Mr. Jordan argued that there was no subsequent
change in interpretation because 38 C.F.R. § 3.304(b)
was “void ab initio” for being contrary to § 1111’s
“facially apparent meaning.” Id. We rejected that
argument because “the accuracy of the regulation as
an interpretation of the governing legal standard does
not negate the fact that [§ 3.304(b)] did provide the
first commentary on section 1111, and was therefore
the initial interpretation of that statute,” which
subsequently changed with the issuance of the
2003 OGC opinion. Id.
Here, as in Jordan, Appellants’ argument that
their CUE claims are not premised on a “change in
the law” fails to appreciate that 38 C.F.R. § 3.304(b)
provided the initial interpretation of § 1111,
regardless of any inaccuracies subsequently reflected
in Wagner. Section 3.304(b) established the VA’s
controlling interpretation of § 1111’s rebuttal
standard at the time of Appellants’ VA decisions, and
it would make little sense for the Board’s and RO’s
“otherwise correct application” of this then-binding
regulation to constitute adjudicative error, let alone
CUE. See 38 C.F.R. §§ 20.1403(e), 3.105(a)(1)(iv).
Indeed, Appellants do not dispute that VA
adjudicators, at the time of their original Board and
RO decisions, were bound by § 3.304(b). See also 38
U.S.C. § 7104(c) (“The Board shall be bound in its
decisions by the regulations of the Department ….”).
And contrary to Appellants’ assertion that § 1111’s
language is plain and unambiguous, Wagner found
the language of § 1111’s rebuttal standard “somewhat

18a
difficult to parse” and “self-contradictory” “on its
face.” See 370 F.3d at 1093.
That Wagner was the first judicial interpretation
of § 1111 by this court does not lead to a contrary
result. Jordan does not differentiate between new
agency
interpretations
and
new
judicial
interpretations, and instead, refers to both the
2003 OGC opinion and Wagner as evidence of a
change in interpretation of § 1111. See Jordan,
401 F.3d at 1298. Jordan, moreover, determined that
granting CUE claims premised on a changed
interpretation of law—whether based on Wagner or
the 2003 OGC opinion—would fail to “give adequate
weight to the finality of judgments,” given that “[t]he
Supreme Court has repeatedly denied attempts to
reopen final decisions in the face of new judicial
pronouncements.” Id. at 1299; see also DAV, 234 F.3d
at 698 (concluding that new statutory interpretations
cannot, through a CUE motion, retroactively affect
decisions that are final). We thus cabined the reach of
CUE motions to exclude retroactive application of a
new judicial or agency pronouncement to a final VA
decision on a benefits claim.
Even though Jordan precludes CUE claims based
on retroactively applying either our interpretation in
Wagner or the VA’s interpretation in the 2003 OGC
opinion, Appellants nonetheless urge us to follow the
contrary reasoning of the Patrick cases and hold that
Wagner can serve as the basis for their CUE claims.
Specifically, Patrick II, in a nonprecedential decision,
distinguished Jordan as purportedly addressing only
“whether a change in the regulatory interpretation of
a statute had retroactive effect on CUE claims, not

19a
whether our interpretation of the statute in Wagner
had retroactive effect on CUE claims.” See Patrick II,
242 F. App’x at 698. Because Mrs. Patrick’s CUE
claim was premised on our interpretation of § 1111 in
Wagner, and not on the VA’s changed regulatory
interpretation of § 1111, Patrick II determined that
Jordan’s “limited holding” did not apply to bar Mrs.
Patrick’s claim. Id. Subsequently, Patrick III
summarized Patrick II’s reasoning in dicta and
reversed the denial of Mrs. Patrick’s application for
EAJA fees, explaining that the lower court had failed
to consider “the fact that the government had adopted
an interpretation of [§ 1111] that was wholly
unsupported by either the plain language of the
statute or its legislative history” in assessing whether
the government’s position was substantially justified.
See Patrick III, 668 F.3d at 1334.
We conclude, as the Veterans Court did, that we
are not bound by the Patrick cases to reach a holding
contrary to DAV and Jordan. Patrick II is a
nonprecedential decision that issued after DAV and
Jordan. Indeed, we expressly denied a motion to
reissue Patrick II’s nonprecedential decision as
precedential. See Patrick v. Shinseki, No. 06-7254
(Fed. Cir. Aug. 21, 2007), ECF No. 26. And Patrick III,
though precedential, does not directly address
whether Wagner can serve as a basis for CUE. While
Patrick III summarizes Patrick II’s reasoning in the
background section and in a footnote, its description
of Patrick II in dicta does not elevate it to binding
precedent. See Fed. Cir. R. 32.1(d) (“The court … will
not give one of its own nonprecedential dispositions
the effect of binding precedent.”).

20a
B
Appellants next argue that the Veterans Court
misconstrued principles of finality and retroactivity
in Supreme Court decisions, such as Harper and
Beam. When properly read, Appellants contend, these
cases “support the retroactive application of judicial
pronouncements in cases that are open to collateral
attack,” Martin Appellant’s Br. 19, or, if not, are
otherwise “irrelevant” to their CUE claims given
Rivers’s pronouncement that a judicial construction of
a statute is an authoritative statement of what that
statute has always meant, George Appellant’s Br. 22.
We disagree.
Nothing in these cases supports Appellants’
contention that a new judicial pronouncement
retroactively applies to final decisions, even those
subject to a collateral attack, such as a request to
revise a final Board or RO decision for CUE. See
Routen v. West, 142 F.3d 1434, 1437 (Fed. Cir. 1998)
(explaining that “basic principles of finality and res
judicata apply to … agency decisions” that have not
been appealed and have become final). Instead,
Harper adopted a rule consistent with Beam that new
judicial pronouncements are to be given “full
retroactive effect in all cases still open on direct
review” but not in final cases already closed. See
Harper, 509 U.S. at 96 (emphasis added); see also, e.g.,
Beam, 501 U.S. at 529 (“Retroactivity in civil cases
must be limited by the need for finality; once suit is
barred by res judicata …, a new rule cannot reopen
the door already closed.” (citation omitted));
Reynoldsville Casket Co. v. Hyde, 514 U.S. 749,
758 (1995) (“New legal principles, even when applied

21a
retroactively, do not apply to cases already closed.”);
DAV, 234 F.3d at 698 (“[t]he new interpretation of a
statute can only retroactively [a]ffect decisions still
open on direct review, not those decisions that are
final,” and is therefore not a basis for CUE); Jordan,
401 F.3d at 1299 (recognizing that “new judicial
interpretations” of a statute generally apply only to
“pending cases”).
While Rivers states that “[a] judicial construction
of a statute is an authoritative statement of what the
statute meant before as well as after the decision of
the case giving rise to that construction,” 511 U.S. at
312-13, it never holds that judicial constructions of
statutes should be retroactively applied to final
decisions, such as the VA decisions at issue here.
Instead, Rivers cites to Harper, which expressly limits
retroactivity of judicial decisions to pending “cases
still open to direct review.” See id. At 312 (citing
Harper, 509 U.S. at 97). And DAV likewise cites
Harper for support in upholding the validity of 38
C.F.R. § 20.1403(e), which states that CUE does not
arise from “the correct application of the statute or
regulation as it was interpreted at the time of the
decision.” DAV, 234 F.3d at 697.
C
Our determination that Wagner cannot serve as
the basis for Appellants’ CUE claims accords with the
legislative intent behind the CUE statutes, 38 U.S.C.
§§ 7111 and 5109A. Neither statute addresses
subsequent changes in law, interpretations of law, or
otherwise defines CUE. Instead, these statutes
merely provide that a prior decision shall be revised

22a
for CUE “[i]f evidence establishes the error.” See id.
§§ 7111(a), 5109A(a). Upon revision, the statutes then
authorize retroactive benefits from the effective date
of the original decision. See id. §§ 7111(b), 5109A(b).
The statutory history, however, is more
instructive. Prior to their statutory enactment, CUE
had been solely an administrative practice governed
by VA regulation for several decades, dating back to
1928. DAV, 234 F.3d at 686. Congress enacted §§ 7111
and 5109A in 1997 to “codify [the] existing
regulation[]” governing CUE in RO decisions and
extend those principles to Board decisions as well. See
H.R. Rep. No. 105-52, at 1 (1997). These statutes
“made no change in the substantive standards”
governing CUE and “merely codified the prior
regulation” provided in 38 C.F.R. § 3.105, see
Donovan v. West, 158 F.3d 1377, 1382 (Fed. Cir.
1998), and the Veterans Court’s “long standing
interpretation of CUE,” see Bustos v. West, 179 F.3d
1378, 1381 (Fed. Cir. 1999). We therefore look to the
pre-codified version of § 3.105 and established CUE
standards to understand Congress’ intent in enacting
the CUE statutes.
As an initial matter, we observe that the VA’s
CUE regulation predates the enactment of the
Veterans’ Judicial Review Act, Pub. L. No. 100-687,
102 Stat 4105 (1988), which, for the first time,
permitted judicial review of VA decisions. Because
§ 3.105 predates judicial review, this regulation and
the VA’s administrative practice, before 1988, could
not have contemplated CUE would arise from a new
judicial interpretation of a statute.

23a
More importantly, as of the CUE doctrine’s
statutory codification in 1997, § 3.105’s preamble
provided that revision of a final RO decision based on
CUE was available “except where” the alleged error
was based on “a change in law or Department of
Veterans Affairs issue, or a change in interpretation
of law or a Department of Veterans Affairs issue
(§ 3.114).” 6 38 C.F.R. § 3.105 (1997) (emphases
added); see also Russell, 3 Vet. App. at 313
(“[C]hanges in the law subsequent to the original
adjudication … do not provide a basis for revising a
finally decided case.”). Given that § 3.105 plainly
excluded a “change in law” or “change in
interpretation of law” from CUE, we conclude that by
codifing this regulation, Congress did not intend for
CUE to go so far as to attack a final VA decision’s
correct application of a then-existing regulation that
is subsequently changed or invalidated, whether by

We do not construe § 3.105’s reference to § 3.114 to be limiting.
We nonetheless observe that the substance of § 3.114 comports
with our above understanding of CUE. As of 1997, § 3.114
pertained, in relevant part, to the effective date of awards
pursuant to liberalizing laws. It explained that where an award
is made pursuant to a “liberalizing law” or “liberalizing VA
issue,” the effective date of that award “shall not be earlier than
the effective date of the act or administrative issue” itself. See 38
C.F.R. § 3.114(a) (1997). Thus, even where a subsequent law
liberalizes benefits that were unavailable under a prior
understanding of the law, the effective date of those benefits
cannot be earlier than the effective date of the liberalizing law
itself. Likewise, here, our understanding of CUE precludes
Wagner’s interpretation of § 1111 from providing retroactive
benefits predating Wagner itself.

6

24a
the agency or the judiciary.7 In other words, the VA
does not commit clear and unmistakable error in a
benefits claim decision when it faithfully applies a
regulation as it existed at the time of decision, even if
that regulation is later revised or invalidated.
Accordingly, we reject Appellants’ theory as to the
scope of CUE and hold that our interpretation of
§ 1111 in Wagner cannot be the basis for Appellants’
CUE claim.
CONCLUSION
We have considered Appellants’ remaining
arguments but find them unpersuasive. For the
reasons set forth above, we affirm the Veterans
Court’s decisions.
AFFIRMED
COSTS
No costs.

We note that the VA reached this conclusion in its 1994 OGC
opinion, VA Gen. Counsel Prec. 9-94 (Mar. 25, 1994), which
addressed whether Veterans Court decisions invalidating VA
regulations or statutory interpretations have retroactive effect
through CUE. As with our decision today, the VA also
interpreted § 3.105’s preamble to exclude changes in
interpretation of law by judicial precedent as a basis for CUE.
See id. at 2 (“[I]t is our view that section 3.105(a) provides no
authority … for retroactive payment of benefits when the
[Veterans Court] invalidates a VA interpretation or
regulation.”).
7

25a
APPENDIX B
UNITED STATES COURT OF APPEALS FOR
VETERANS CLAIMS
No. 16-2174
KEVIN R. GEORGE, APPELLANT,
V.
ROBERT L. WILKIE,
SECRETARY OF VETERANS AFFAIRS,
APPELLEE.
On Appeal from the Board of Veterans’ Appeals
(Decided January 4, 2019)
Kenneth M. Carpenter, of Topeka, Kansas, was on
the brief for the appellant.
Meghan Flanz, Interim General Counsel; Mary
Ann Flynn, Chief Counsel; Richard A. Daley, Deputy
Chief Counsel; and Mark D. Gore, all of Washington,
D.C., were on the brief for the appellee.
Before DAVIS, Chief Judge, and BARTLEY and
MEREDITH, Judges.
Davis, Chief Judge, filed the opinion of the Court.
BARTLEY, Judge, filed a dissenting opinion.
DAVIS, Chief Judge: U.S. Marine Corps veteran
Kevin R. George appeals through counsel a March 1,
2016, Board of Veterans’ Appeals (Board) decision

26a
that found no clear and unmistakable error (CUE) in
a September 1977 Board decision that denied
entitlement to VA disability compensation benefits
for schizophrenia. Record (R.) at 2-14. On September
6, 2017, the Court issued a memorandum decision
affirming the Board’s decision. On September 19,
2017, Mr. George filed a motion for reconsideration.
On October 27, 2017, the matter was referred to a
panel of the Court. On November 15, 2017, the panel
granted Mr. George’s motion for reconsideration,
withdrew the September 2017 memorandum
decision, ordered the Secretary to respond to
Mr. George’s motion for reconsideration, and
permitted Mr. George to reply to the Secretary’s
response. After considering the briefs, the motion for
reconsideration, the Secretary’s response to the
motion, and Mr. George’s reply, the Court will affirm
the Board’s March 2016 decision.
I. BACKGROUND
In June 1975, Mr. George enlisted in the U.S.
Marine Corps. A week after enlistment, he was
hospitalized and diagnosed with an acute situational
reaction. R. at 6; see R. at 1172, 1289. In July 1975,
Mr. George was discharged from the hospital and
ultimately placed in a training platoon. The following
month, a psychiatrist diagnosed Mr. George with
paranoid schizophrenia. An August 1975 Medical
Board Report confirmed the schizophrenia diagnosis,
found that his condition preexisted service and was
aggravated by service, and recommended referral to
the Central Physical Evaluation Board for discharge.
In contrast, the Physical Evaluation Board found that
his condition preexisted service but was not

27a
aggravated by service. Mr. George was discharged
from service in September 1975.
In December 1975, Mr. George filed a claim for
benefits contending that his schizophrenia was
aggravated by his military service. A May 1976
regional office (RO) decision denied his claim because
his condition existed prior to service and there was an
acute exacerbation but no permanent aggravation
during service. In September 1977, the Board denied
Mr. George’s claim because his condition existed prior
to service and was not aggravated during service.
In December 2014, through current counsel,
Mr. George filed a motion to revise the September
1977 Board decision on the basis of CUE. Mr. George
alleged that the Board failed to correctly apply 38
U.S.C. § 311, 1 as VA did not rebut the presumption of
sound condition with clear and unmistakable
evidence that his condition was not aggravated by
service. R. at 593.
In the March 2016 decision on appeal, the Board
found no CUE in the September 1977 Board decision.
The 2016 Board noted that the September 1977 Board
“in conducting its presumption of soundness analysis
under 3.304(b) (1977) … was not required to find clear
and unmistakable evidence that the disability was
not aggravated by service.” R. at 5. The Board further
acknowledged that the U.S. Court of Appeals for the
Federal Circuit (Federal Circuit) held that section
The presumption of soundness is now codified as 38 U.S.C.
§ 1111, but the statutory language is identical to the precursor
statute, section 311.

1

28a
1111, the presumption of soundness statute, requires
clear and unmistakable evidence that a condition both
existed prior to service and was not aggravated
during service, see Wagner v. Principi, 370 F.3d 1089
(Fed. Cir. 2004), but stated that “judicial decisions
that formulate new interpretations of the law
subsequent to a VA decision cannot be the basis of a
valid CUE claim.” R. at 6. Relying on Jordan v.
Nicholson, 401 F.3d 1296 (Fed. Cir. 2005), the Board
explained that the interpretation of the presumption
of sound condition that the Federal Circuit
“articulated in Wagner[] does not have retroactive
application in a CUE case. Thus, the failure of the
Board [in September 1977] to find that the
[claimant’s] condition was not clearly and
unmistakably aggravated by service as part of its
presumption of soundness analysis cannot be
considered to be CUE.” Id.
In its 2016 decision, the Board discussed the
evidence before the Board in September 1977 and
concluded that there was evidence that Mr. George’s
schizophrenia existed prior to service, and conflicting
evidence as to whether his condition was aggravated
by service. The Board noted that the Medical Board
had concluded that Mr. George’s condition had its
onset prior to service and that his disability was
aggravated by service. R. at 8. In contrast, the Board
pointed to the August 1975 “Physical Evaluation
Board Proceedings and Findings” form stating that
Mr. George’s condition preexisted service and was not
aggravated by service.
The 2016 Board conceded that the September
1977 Board did not discuss the presumption of

29a
soundness statute, 38 U.S.C. § 311 (1977), discuss its
implementing regulation, 38 C.F.R. § 3.304(b) (1977),
or explain how there was clear and unmistakable
evidence that Mr. George’s condition existed prior to
service and was not aggravated by service. R. at 10.
The 2016 Board stated, however, that even though
the September 1977 Board erred, the error was not
outcome determinative “because the Board
nonetheless considered all relevant evidence of record
at the time of its September 1977 decision.” R. at 11.
The 2016 Board concluded that Mr. George’s
allegation of CUE in the September 1977 decision is
simply a disagreement with how the Board in 1977
weighed the evidence, which does not constitute CUE.
II. PARTIES’ ARGUMENTS
On appeal, Mr. George argues that the Board in
March 2016 erred in finding that, under 38 C.F.R.
§ 3.304(b) (1977), the Board in September 1977 “was
not required to find clear and unmistakable evidence
that the disability was not aggravated by service.” R.
at 5. He contends that his CUE motion specifically
challenged the application of section 311, a statute,
and not the VA regulation in effect in 1977.
Mr. George further points out that when a court
interprets a statute, its interpretation is a statement
of what the law has always been, which he argues
renders the Board’s dismissal of Wagner improper.
See Appellant’s Brief (Br.) at 5. He asserts that the
2016 Board’s reliance on Jordan is misplaced because
that case does not address “whether the court’s
interpretation of the statutory presumption of
soundness had a retroactive effect on requests for
revisions based on an allegation of [CUE] due to the

30a
Board’s failure to correct[ly] apply the statute,
notwithstanding
what
the
VA’s
regulatory
interpretation of the statute may have been.” Id. at 6.
In support of this argument, Mr. George relies on the
Federal Circuit’s decision in Patrick v. Shinseki, 668
F.3d 1325 (Fed. Cir. 2011).
The Secretary agrees that the 2016 Board erred
in stating that the 1977 Board, “in conducting its
presumption of soundness analysis under 3.304(b)
(1977)[,] … was not required to find clear and
unmistakable evidence that the disability was not
aggravated by service.” R. at 5. Further, the Secretary
recognizes that the 2016 Board also erred in relying
on Jordan, 401 F.3d at 1288-89. The Secretary
explains that Jordan speaks only to an allegation of
CUE based on a retroactive effect of a regulation’s
invalidity and the issue here is an allegation of CUE
based on the Board’s failure to properly apply the
statute.
Despite the Board’s error, the Secretary contends
that it is evident from the decision that the 2016
Board conducted the proper analysis, because it
recognized that the Board in 1977 was “bound by the
requirement that there be clear and unmistakable
evidence on the aggravation prong of the analysis.”
Secretary’s Br. at 8. The Secretary argues for the
affirmance of the March 2016 Board decision because
Mr. George did not demonstrate that the Board’s
error in articulating an incorrect evidentiary
standard in 1977 would have resulted in a manifestly
changed outcome. The Secretary asserts that the 2016
Board explained that there was evidence before the
Board in 1977 rebutting both prongs of the

31a
presumption of soundness, that is, evidence that
Mr. George had a preexisting condition and that his
condition was not aggravated by service. See
Secretary’s Br. at 10 (citing R. at 1282-84, 1289,
1294). Accordingly, the Secretary contends that the
2016 Board properly found no CUE in the 1977 Board
decision.
III. ANALYSIS
Mr. George argues that there was CUE in the
September 1977 Board decision because the Board
misapplied the statutory presumption of soundness.
He asserts that, had the presumption of soundness
been correctly applied, VA would have been required
to show by clear and unmistakable evidence that his
condition existed prior to service and was not
aggravated
by
service.
Before
addressing
Mr. George’s arguments, the Court will briefly
discuss the statutory presumption of soundness, the
statute and regulation providing for revision of Board
decisions on the basis of CUE, and the Federal
Circuit’s decisions in Wagner, Jordan, and Patrick,
which provide the context to Mr. George’s arguments.
A. Presumption of Soundness
The presumption of soundness statute, in 1977, as
today, stated:
[E]very veteran shall be taken to have been in
sound condition when examined, accepted,
and enrolled for service, except as to defects,
infirmities, or disorders noted at the time of
the examination, acceptance, and enrollment,

32a
or where clear and unmistakable evidence
demonstrates that the injury or disease
existed before acceptance and enrollment and
was not aggravated by such service.
38 U.S.C. § 311 (1977) (now 38 U.S.C. § 1111).
Because of Wagner, we now know that the
presumption may be rebutted only with clear and
unmistakable evidence of both preexistence and no
aggravation. 370 F.3d at 1096. In 1977, however, the
implementing regulation for this statute required the
Secretary to rebut the presumption of soundness only
with “clear and unmistakable (obvious or manifest)
evidence [that] demonstrates that an injury or disease
existed prior [to service].” 38 C.F.R. § 3.304(b) (1977).
In 2003, VA invalidated this version of the regulation.
See VA Gen. Coun. Prec. 3-2003 (July 16, 2003). The
regulation was amended, effective May 4, 2005, to
incorporate the new interpretation requiring evidence
of both preexistence and no aggravation. See 70 Fed.
Reg. 23,027-01, 23,028 (May 4, 2005).
B. CUE: An Exception to Finality
Congress has enacted a statute allowing Board
decisions to be challenged on the basis of CUE. See 38
U.S.C. § 7111. “CUE proceedings are fundamentally
different from direct appeals,” in that they are a
limited statutory exception to the rule of finality.
Robinson v. Shinseki, 557 F.3d 1355, 1360 (Fed. Cir.
2009); see Disabled Am. Veterans v. Gober (DAV), 234
F.3d 682, 686-87 (Fed. Cir. 2000). CUE is a rare kind
of error and allows final RO and Board decisions to be
reversed or revised. 38 U.S.C. §§ 5109A, 7111; see

33a
DiCarlo v. Nicholson, 20 Vet.App. 52, 54-58 (2006); 38
C.F.R. §§ 3.105, 20.1400-11 (2018).
To establish CUE, a claimant must show that
either the facts known at the time were not before the
adjudicator or the law then in effect was incorrectly
applied, and an error occurred based on the record
and the law that existed at the time the decision was
made. Russell v. Principi, 3 Vet.App. 310, 313-14
(1992) (en banc). The error must also have “manifestly
changed the outcome” of the decision. Id.; see Bustos
v. West, 179 F.3d 1378, 1380 (Fed. Cir. 1999). The
Court’s review of a Board decision finding no CUE in
a prior final Board decision is limited to determining
whether the Board’s finding was “arbitrary,
capricious, an abuse of discretion, or otherwise not in
accordance with law.” 38 U.S.C. § 7261(a)(3)(A);
Russell, 3 Vet.App. at 315.
VA’s implementing regulation for section 7111, 38
C.F.R. § 20.1403(e), states that CUE “does not include
the otherwise correct application of a statute or
regulation where, subsequent to the Board decision
challenged, there has been a change in the
interpretation of the statute or regulation.” The
Federal Circuit affirmed VA’s rulemaking authority
and upheld § 20.1403(e) in DAV, 234 F.3d at 698
(“The new interpretation of a statute can only
retroactively [a]ffect decisions still open on direct
review, not those decisions that are final.”).

34a
C. Wagner, Jordan, and the Presumption of
Soundness
After DAV, the Federal Circuit addressed
§ 3.304(b), section 1111’s implementing regulation, in
Wagner. In that case, the appellant appealed this
Court’s affirmance of a Board decision that
determined that the presumption of soundness had
been rebutted because the Secretary established with
clear and unmistakable evidence that the appellant’s
injury preexisted service. This Court’s decision was
based on § 3.304(b), which allowed the presumption of
soundness to be “rebutted solely by ‘clear and
unmistakable evidence that an injury or disease
existed prior to service.’” Wagner, 370 F.3d at 1091
(quoting 38 C.F.R. § 3.304(b) (1999)). After the
appellant filed his appeal to the Federal Circuit, VA’s
general counsel issued a precedential opinion stating
that, to rebut the presumption of soundness, the
Secretary must show with clear and unmistakable
evidence that a claimant’s disability preexisted
service and was not aggravated by service. See VA
Gen. Coun. Prec. 3-2003 (July 16, 2003). After
examining the legislative history and the language of
section 1111, the Federal Circuit agreed, holding that
the Government must show both preexistence and no
aggravation to rebut the presumption of soundness,
consistent with the VA General Counsel’s opinion.
Wagner, 370 F.3d at 1096.
Following its decision in Wagner, the Federal
Circuit turned to whether its invalidation of
§ 3.304(b) had retroactive effect. In Jordan, the
appellant had appealed a 1999 Board decision finding
no CUE in a 1983 decision that, in turn, found the

35a
presumption of soundness had been rebutted
pursuant to § 3.304(b). The appellant contended that
the invalidation of § 3.304(b) in Wagner should apply
retroactively such that the regulation was, in effect,
not in existence at the time of the 1999 Board
decision, thereby requiring the Board to consider
whether both prongs of the presumption had been
rebutted in 1983. The Federal Circuit rejected
Mr. Jordan’s argument that “invalidation of [the]
regulation can retroactively affect final decisions.”
Jordan, 401 F.3d at 1297. Instead, the Federal Circuit
applied the rule announced in DAV, holding that
“CUE does not arise from a new regulatory
interpretation of a statute” and that, “because the
1983 Board decision was final, Mr. Jordan has no
recourse for appeal through a CUE [motion].” Id. at
1299.
D. The Patrick Line of Cases2
One month after issuing Wagner, the Federal
Circuit issued Patrick I, a nonprecedential decision,
The Patrick line of cases, including precedential and
nonprecedential decisions from both this Court and the Federal
Circuit, is as follows: Patrick v. Principi (Patrick I), 103 F. App’x
383 (2004) (nonprecedential Federal Circuit decision remanding
the case for this Court to consider Wagner); Patrick v. Nicholson
(Patrick II), No. 99-916, 2006 WL 318822 (Vet. App. Feb. 1, 2006)
(single-judge decision of this Court affirming the 1999 Board
decision finding no CUE in the March 1986 Board decision);
Patrick v. Nicholson (Patrick III), 242 F. App’x 695 (Fed. Cir.
2007) (nonprecedential Federal Circuit decision vacating this
Court’s affirmance of the 1999 Board decision); Patrick v. Peake
(Patrick IV), No. 99-916, 2008 WL 331094 (Vet. App. Jan. 31,
2008) (single-judge decision of this Court remanding the case for
the Board to provide an adequate statement of reasons or bases
2

36a
which began the Patrick line of cases. The Court will
discuss this line of cases for context, because
Mr. George relies heavily on the Federal Circuit’s
decision in Patrick VI, a decision on attorney fees, as
well as the Federal Circuit’s nonprecedential
decisions on the merits that preceded it. See Motion
for Reconsideration at 5-10. In the Patrick cases, a
veteran’s widow argued that the Board erred in
finding no CUE in a March 1986 Board decision
because section 1111 requires clear and unmistakable
evidence both that an injury or disease preexisted
service and that any such injury or disease was not
aggravated by service. See Patrick I, 103 F. App’x at
384. This Court affirmed the Board decision and the
appellant appealed to the Federal Circuit.
In Patrick I, a nonprecedential decision, the
Federal Circuit noted its then-recent decision in
Wagner and remanded the matter for “further
consideration” by this Court in light of that precedent.
Id. at 385. The Federal Circuit also noted that
Mrs. Patrick did not challenge the Board’s finding
for its conclusion that Mr. Patrick’s preexisting heart disorder
did not permanently increase during service); Patrick v. Shinseki
(Patrick V), 23 Vet.App. 512 (2010) (panel decision of this Court
denying Equal Access to Justice Act (EAJA), 28 U.S.C. § 2412(d),
fees to Mrs. Patrick because it found that the Government’s
position was substantially justified); Patrick v. Shinseki (Patrick
VI), 668 F.3d 1325 (Fed. Cir. 2011) (Federal Circuit’s
precedential reversal of the denial of EAJA fees to Mrs. Patrick
for failure to adequately address the totality of the
circumstances); Patrick v. Shinseki (Patrick VII), No. 0810899(E), 2012 WL 1860869 (Vet. App. May 23, 2012) (singlejudge decision following the Federal Circuit’s guidance and
finding the Secretary’s position was not substantially justified).

37a
that the Secretary had rebutted the preexistence
prong but rather argued that the Secretary had not
shown by clear and unmistakable evidence that there
was no aggravation during service. Id. On remand,
this Court again affirmed the Board decision, finding
that the Federal Circuit, in its intervening decision in
Jordan, had held “that the presumption-of-soundness
interpretation articulated in Wagner … does not have
retroactive application in a CUE case.” Patrick II,
2006 WL 318822, at *9 (citing Jordan, 401 F.3d at
1298-99). The appellant again appealed to the Federal
Circuit.
In Patrick III, another nonprecedential decision,
the Federal Circuit stated that this Court had
“misread[]” Jordan, which had “addressed whether a
change in the regulatory interpretation of a statute
had retroactive effect on CUE [motions], not whether
[its] interpretation of the statute in Wagner had
retroactive effect on CUE [motions].” 242 F. App’x at
697. The Federal Circuit further stated that its
holding in Jordan was “limited” and explained that,
“[u]nlike changes in regulations and statutes, which
are prospective, [its] interpretation of a statute is
retrospective in that it explains what the statute has
meant since the date of enactment.” Id. at 698 (citing
Rivers v. Roadway Express, 511 U.S. 298, 312-13
(1994)). More specifically, the Federal Circuit stated
that its “interpretation of [section] 1111 in Wagner did
not change the law but explained what [section] 1111
has always meant.” Id. (emphasis omitted). The
Federal Circuit expressly directed this Court on
remand to consider Mrs. Patrick’s CUE motion and if
necessary “remand to the Board for a determination
of whether the government has rebutted the

38a
presumption of soundness under [section] 1111 by
providing clear and unmistakable evidence of no inservice aggravation of Mr. Patrick’s heart disease.”
Patrick III, 242 F. App’x at 698. On remand, in
Patrick IV, this Court vacated the Board decision and
remanded the appellant’s appeal, and she filed an
application for attorney fees under EAJA. In Patrick
V, this Court denied the application, finding that the
Secretary’s position was substantially justified;
Mrs. Patrick again appealed to the Federal Circuit.
In the “Background” section of Patrick VI, the
first and only precedential decision in this line of
cases, the Federal Circuit summarized what it said in
Patrick III about the limitations of Jordan and the
effect of its pronouncement regarding section 1111 in
Wagner. 668 F.3d at 1328-29. In the “Discussion”
section of Patrick VI, the Federal Circuit addressed
whether EAJA fees were warranted, reversed this
Court’s finding that the Secretary’s position was
substantially justified, and remanded the matter for
this Court to consider substantial justification using
the totality of circumstances test.3 Id. at 1334. The
Federal Circuit included the following footnote:
Nor did the Veterans Court [in Patrick V]
fully assess the question of whether the
government was substantially justified in
arguing, following our decisions in Wagner,
370 F.3d at 1094-96, and Patrick I, 103 F[.]
App[’]x[] at 384-85, that this court’s
This Court ultimately granted Mrs. Patrick’s EAJA application
in Patrick VII.

3

39a
interpretation of section 1111 did not apply
retroactively in the context of a CUE claim.
We soundly rejected this argument in Patrick
III, where we explained that[,] “[u]nlike
changes in regulations and statutes, which
are prospective, our interpretation of a
statute is retrospective in that it explains
what the statute has meant since the date of
enactment.” 242 F[.] App[’]x[] at 698. We
emphasized,
moreover,
that
“our
interpretation of § 1111 … did not change the
law but explained what [section] 1111 has
always meant,” and should therefore be
applied to Mrs. Patrick’s claim alleging CUE
in the [B]oard’s previous decision denying her
application for dependency and indemnity
benefits. Id.
Patrick VI, 668 F.3d at 1333 n.6.
E. Retroactivity and CUE
This appeal involves the competing doctrines of
finality and retroactivity. In civil cases, the need for
finality limits the application of retroactivity. James
B. Beam Distilling Co. v. Ga. (Beam), 501 U.S. 529,
541 (1991) (citing Chicot Cty. Drainage Dist. v. Baxter
State Bank, 308 U.S. 371 (1940)). The Federal Circuit
has held that “[p]rinciples of finality and res judicata
apply to agency decisions that have not been appealed
and become final.” Cook v. Principi, 318 F.3d 1334,
1336 (Fed. Cir. 2002); see id. at 1339 (“The purpose of
the rule of finality is to preclude repetitive and
belated readjudication of veterans’ benefit claims.”).
In Jordan, the Federal Circuit noted the importance

40a
of finality, commenting that the appellant’s argument
that § 3.304(b) was void ab initio did not “give
adequate weight to finality of judgments” and citing
Supreme Court cases that “denied attempts to reopen
final decisions in the face of new judicial
pronouncements or decisions finding statutes
unconstitutional.” 401 F.3d at 1299 (citing
Reynoldsville Casket Co. v. Hyde, 514 U.S. 749, 752
(1995), for the proposition that new judicial
interpretations of a statute apply to “all pending
cases”).
Generally, courts apply settled principles of law
to the disputes before them but, “when the law
changes in some respect,” an argument for
retroactivity arises. Beam, 501 U.S. at 534. A new
rule of law is announced, in the civil context, when the
court overrules past precedent or decides a case of
first impression. Reynoldsville Casket Co., 514 U.S. at
763. Beam makes clear that the retroactive
application of a judicial pronouncement of the law is
not absolute. Rather, as the Supreme Court has
expressly determined, the application of judicial
retroactivity in civil cases is bound by principles of res
judicata and limited to those cases open on direct
review. 4 In Harper v. Virginia Department of

In the criminal context, the Supreme Court even distinguishes
between applying new rules to cases open on direct review and
those cases subject to collateral attack. New rules in criminal
law are applied to cases open on direct review but not to those
subject to collateral attacks. Compare Griffith v. Kentucky, 479
U.S. 314 (1987) (applying new rules retroactively to criminal
cases on direct review), with Teague v. Lane, 489 U.S. 288 (1989)

4

41a
Taxation, the Supreme Court, relying on Beam, held
that, when a court applies a “federal law to the parties
before it, that rule is the controlling interpretation of
federal law and must be given full retroactive effect
in all cases still open on direct review.” 509 U.S. 86, 97
(1993) (emphasis added); see Beam, 501 U.S. at 535.
Generally, there is little opportunity to
collaterally attack final judgments in civil cases;
however, in the veterans law universe, limited
collateral attacks on final decisions are authorized by
statute. See Beam, 501 U.S. at 540 (determining
whether to apply new rules to cases on direct appeal
or cases arising collaterally is not a problem in the
civil arena as “there is little opportunity for collateral
attack of final judgments”); see also 38 U.S.C. § 7111;
Cook, 318 F.3d at 1339 (noting that CUE is a
statutory exception to the rule of finality). An
allegation of CUE is a statutorily permitted collateral
attack on final VA decisions, with allegations of CUE
evaluated based on the law that existed at the time of
the final decision. Russell, 3 Vet.App. at 314 (“A
determination that there was a ‘[CUE]’ must be based
on the record and the law that existed at the time of
the prior … decision.”); see Willsey v. Peake, 535 F.3d
1368, 1373 (Fed. Cir. 2008) (“[T]he record and the law
as they existed at the time of the determination do not
compel a finding of CUE in the 1983 determination.”).
The Federal Circuit’s interpretation of the
presumption of soundness statute announced in
(holding that new rules will not relate back to criminal
convictions challenged on habeas corpus grounds).

42a
Wagner is “an authoritative statement of what the
statute meant before as well as after the decision of
the case giving rise to that construction.” Rivers, 511
U.S. at 312-13. We do not, as our dissenting colleague
contends, find that Wagner contained a new
interpretation of section 1111. Post at 17. Instead, as
further explained below, we find that the Federal
Circuit’s announcement in Wagner in 2004 of what
section 1111 means cannot defeat the finality of a
1977 Board decision, see Harper, 509 U.S. at 97. This
is so because consideration of CUE requires the
application of the law as it was understood at the time
of the 1977 decision, see Willsey, 535 F.3d at 1373;
Russell, 3 Vet.App. at 314, and Wagner does not
change how section 311 (now section 1111) was
interpreted or understood before it issued. Applying a
statute or regulation as it was interpreted and
understood at the time a prior final decision is
rendered does not become CUE by virtue of a
subsequent interpretation of the statute or regulation
by this Court or the Federal Circuit. When VA
proposed the CUE regulation, VA anticipated that
“[a]n interpretation of a statute or regulation could, in
light of future interpretations—whether by the
General Counsel or a court—be viewed as erroneous.
That would not, however, be the kind of error required
for CUE, i.e., an error about which reasonable persons
could not differ.” 63 Fed. Reg. 27,534, 27,537 (May 19,
1998).
F. Application of Law to the Facts
Mr. George argues that the 2016 Board erred in
stating that the 1977 Board was not required to find
clear and unmistakable evidence that his

43a
schizophrenia was not aggravated by service in light
of the 1977 version of § 3.304(b). Appellant’s Br. at 3.
Although the Secretary concedes error in this regard,
the Court does not agree. See Copeland v. Shinseki,
26 Vet.App. 86, 90 n.4 (2012) (noting that the parties’
agreement is not binding on the Court). In 1977, the
Board was required to apply the law as it existed at
that time, including § 3.304(b), requiring the
Secretary to rebut the presumption of soundness with
only clear and unmistakable evidence that an injury
or disease existed before service. See 38 C.F.R. § 19.1
(1977) (“In its decisions, the Board is bound by the
regulations of the Veterans Administration,
instructions of the Administrator and precedent
opinions of the chief law officer.”). Consequently, it is
not clear how the Board could have ignored this
regulation or why the Board would have been
required to find clear and unmistakable evidence of
aggravation in 1977. This regulatory interpretation of
the statutory presumption of soundness, requiring
the Secretary to rebut the presumption only with
clear and unmistakable evidence that a disability
preexisted service, prevailed until 2003. See Doran v.
Brown, 6 Vet.App. 283, 286 (1994) (holding that the
presumption of soundness “can be overcome only by
clear and unmistakable evidence that a disability
existed prior to service”); Bagby v. Derwinski, 1
Vet.App. 225, 227 (1991) (holding that the
presumption of soundness had been rebutted when
there was clear and unmistakable evidence that the
appellant entered service with a preexisting ulcer);
see also VA Gen. Coun. Prec. 3-2003 (July 16, 2003).
While the Federal Circuit’s interpretation of the
presumption of soundness statute in Wagner sets

44a
forth what the statute has always meant, it was not
the interpretation or understanding of the statute
before its issuance. See Rivers, 511 U.S. at 312-13;
Harper, 509 U.S. at 97; Russell, 3 Vet.App. at 315. VA
issued a precedential general counsel opinion in 2003
that invalidated the statute’s initial implementing
regulation, § 3.304(b). In 2004, the Federal Circuit
issued its first judicial interpretation of the
presumption of soundness statute — a new
interpretation and different from VA’s initial
interpretation as expressed in § 3.304(b). Jordan, 401
F.3d at 1298 (“[T]here was a change in interpretation
of section 1111 with the issuance of the opinion by the
VA’s General Counsel stating that 38 C.F.R. § 3.304
conflicted with the language of section 1111.”).
Because we find that Wagner does not apply
retroactively to final decisions, we conclude that the
2016 Board correctly stated the law as it existed in
1977.
With regard to judicial retroactivity, the parties
agree that Wagner applies retroactively and its
holding supports an allegation of CUE based on the
misapplication of the presumption of soundness as
discussed in Patrick III. See Appellant’s Motion for
Reconsideration at 9; Secretary’s Response to the
Appellant’s Motion for Reconsideration at 6. The
Court, however, disagrees. See Copeland, 26 Vet.App.
at 90 n.4. Mr. George’s argument is that if the Federal
Circuit’s interpretation of section 1111 in Wagner—
that clear and unmistakable evidence is required to
rebut both prongs of the presumption of sound
condition—is what the law “‘has meant since the date
of enactment,’” Patrick VI, 668 F.3d at 1329 (quoting
Patrick III, 242 F. App’x at 698), then the Board in

45a
September 1977 was required to apply that
interpretation of the law and its failure to do so could
constitute CUE.
As noted above, in Patrick VI, the Federal Circuit
commented in a footnote that it had “soundly rejected
[the argument that Wagner did not apply
retroactively in the context of a CUE motion] in
Patrick III.” 668 F.3d at 1333 n.6. Mr. George
essentially contends that, by explaining in the
precedential Patrick VI opinion what the Federal
Circuit held in the nonprecedential Patrick III
opinion, the nonprecedential holding became
precedential. Patrick VI, however, addresses whether
EAJA fees are warranted; it does not directly address
whether Wagner supports a basis for a CUE motion.
Accordingly, we conclude that the Federal Circuit’s
pronouncement in Patrick VI—regarding the effect of
Wagner on CUE motions—is dicta. See Jama v.
Immigration & Customs Enf’t, 543 U.S. 335, 352 n.12
(2005) (“Dictum settles nothing, even in the court that
utters it.”); McDaniel v. Sanchez, 452 U.S. 130, 141
(1981) (“[D]ictum unnecessary to the decision in [a]
case … [is] not controlling in this case.”).
Moreover, Patrick III is not binding precedent.
See Fed. Cir. R. 32.1(d) (“The court may refer to a
nonprecedential disposition in an opinion or order and
may look to a nonprecedential disposition for
guidance or persuasive reasoning, but will not give
one of its own nonprecedential dispositions the effect
of binding precedent.”). In Patrick III, the Federal
Circuit clearly stated that the interpretation of a
statute is retrospective and implied that Wagner
could form the basis of an allegation of CUE. Patrick

46a
III also explained that this Court misread the limited
holding of Jordan, and that Jordan did not support
the proposition that this Court announced, i.e., that
Wagner could not support an allegation of CUE.
Interestingly, to support the legal proposition that a
court’s interpretation of a statute is retrospective and
explains what a statute has always meant, the
Federal Circuit in Patrick III cited Rivers, 511 U.S. at
312, which noted that judicial decisions generally
apply retroactively only to cases open on direct
review.
The statements in Patrick III and the footnote in
Patrick VI as to Wagner’s retroactivity conflict with
other precedential Federal Circuit caselaw. For
example, in DAV, the Federal Circuit recognized that
CUE is a collateral attack on a final regional office or
Board decision and that “[t]he new interpretation of a
statute can only retroactively [a]ffect decisions still
open on direct review, not those decision[s] that are
final.” 234 F.3d at 698 (emphasis added) (citing
Harper, 509 U.S. at 97). The Federal Circuit affirmed
VA’s regulation in DAV, including the language that
CUE “does not include the otherwise correct
application of a statute or regulation where,
subsequent to the Board decision challenged, there
has been a change in the interpretation of the statute
or regulation.” 38 C.F.R. § 20.1403(e). Mr. George
asserts that there was no “otherwise correct
application” of the law in 1977 because Wagner stated
what the law has always meant. At the time of the
Board’s 1977 decision, however, the law was
interpreted and understood differently. Russell, 3
Vet.App. at 312-13. In another case dismissing an
appeal from this Court, the Federal Circuit

47a
commented that, “where the regulations in existence
at the time of the original decision imposed a different
rule, Wagner cannot be the basis for a CUE claim.”
Joyce v. Nicholson, 443 F.3d 845, 848 (Fed. Cir. 2006).
Further, it would defy reason to hold, on the one
hand, that VA’s 2003 change in interpretation of
§ 3.304(b) cannot form the basis of a CUE challenge
to the 1977 Board decision because the Board in 1977
applied the then-prevailing regulatory interpretation,
see Jordan, 401 F.3d at 1298, and on the other hand
that a statement of statutory interpretation
announced in 2004 can form the basis of a CUE
challenge to the 1977 Board decision because the
statute has “always meant” something different than
the then-prevailing interpretation, see Patrick III, 242
F. App’x at 698. Because the statutory interpretation
of section 311 in 1977 was embodied in § 3.304(b) as
it then existed, there was no practical difference
between the application of section 311 and § 3.304(b)
in 1977. Wagner did not exist in 1977, and therefore
the proper application of section 311 in 1977 did not
require clear and unmistakable evidence that a
preexisting condition was not aggravated by service.
See Berger v. Brown, 10 Vet.App. 166, 170 (1997) (“A
new rule of law from a case decided in 1993 could not
possibly be the basis of an adjudicative error in
1969.”).
It is noted that the implications from the Federal
Circuit’s nonprecedential Patrick opinions and the
Patrick VI EAJA opinion raise significant issues from
the perspective of this specialized Court with regard
to the review of CUE motions. See Shinseki v.
Sanders, 556 U.S. 396, 412 (2009) (noting this Court’s

48a
special expertise and quoting United States v. Haggar
Apparel Co., 526 U.S. 380 (1999), for the proposition
that an “Article I court’s special ‘expertise … guides it
in making complex determinations in a specialized
area of the law’”). The impact of allowing judicial
decisions interpreting statutory provisions issued
after final VA decisions to support allegations of CUE
would cause a tremendous hardship on an already
overburdened VA system of administering veterans
benefits. Each judicial interpretation of a statute
which changes a previously accepted meaning of the
statute could spawn hundreds of allegations of CUE
in prior final decisions. As a result of a deluge of CUE
motions, VA’s limited resources would be diverted
from processing claims and hearing appeals to
evaluating allegations of CUE based on new statutory
interpretations. See Exxon Corp. v. U.S. Dep’t of
Energy, 744 F.2d 98, 114 (Fed. Cir. 1984) (considering
the “substantial and impossible burdens on the
administration of justice” when deciding whether a
rule should be retroactive); Cook, 318 F.3d at 1336
(noting that the “[p]rinciples of finality and res
judicata apply to agency decisions that have not been
appealed and have become final”).
Here, Mr. George’s appeal of the denial of benefits
for schizophrenia was not open for direct review when
Wagner was decided. In 1977, Mr. George had
exhausted his administrative remedy by appealing to
the Board and this decision was final. Until 1988,
veterans who received adverse Board decisions had
virtually no recourse to the courts. See Veterans’
Judicial Review Act (VJRA), Pub. L. No. 100-687, 102
Stat. 4105 (codified as amended at 38 U.S.C. §§ 72517198); Prinkey v. Shinseki, 735 F.3d 1375, 1382 (Fed.

49a
Cir. 2013) (“[B]efore the enactment of [the VJRA] in
1988, there was virtually no judicial review of
decisions by the VA.”). Because Mr. George’s case was
not open for direct review, the judicial interpretation
in Wagner does not apply retroactively. See Harper,
509 U.S. at 97; Beam, 501 U.S. at 535. Therefore,
Wagner’s interpretation of the presumption of
soundness statute issued in 2004 did not change how
the law was interpreted or understood when the
Board issued its final decision in September 1977.
Thus, to the extent that Mr. George’s CUE motion
includes an argument that, in 1977, there was not
clear and unmistakable evidence to show that his
condition preexisted service, the 2016 Board noted
that the evidence before the 1977 Board included
evidence that Mr. George began to hear voices in
April 1975 and that he experienced psychiatric
symptoms en route to Utah to join the military in May
1975. R. at 10-11; see R. at 1244, 1282. The Medical
Board and the Physical Evaluation Board both
concluded that Mr. George’s mental condition
preexisted service. R. at 11. Although the 2016 Board
noted that the record contained conflicting
statements as to when Mr. George stated that his
psychiatric symptoms began, it stressed that the
September 1977 Board considered and weighed the
evidence of record. R. at 11. As the 2016 Board
concluded, “any disagreement with how the [1977]
Board evaluated the evidence []and how it concluded
from the evidence that the [v]eteran’s claimed
psychiatric disability pre[]existed service … is
inadequate to rise to the level of CUE.” R. at 11; see
Waltzer v. Nicholson, 447 F.3d 1378, 1380 (Fed. Cir.
2006) (explaining that a challenge to the legal

50a
sufficiency of the evidence requires an argument of no
evidence to rebut the presumption of soundness or the
kind or character of the evidence is insufficient as a
matter of law, otherwise, the challenge is to the
weight or sufficiency of fact required to rebut the
presumption of soundness); Kent v. Principi, 389 F.3d
1380, 1383 (Fed. Cir. 2004) (“The clear and
unmistakable evidentiary standard … does not
require the absence of conflicting evidence.”); 38
C.F.R. § 20.1403(d)(3). Accordingly, Mr. George has
not demonstrated that the 2016 Board’s decision that
the 1977 Board decision does not contain CUE is
arbitrary, capricious, an abuse of discretion, or
otherwise not in accordance with the law. Pierce v.
Principi, 240 F.3d 1348, 1356 (Fed. Cir. 2001)
(holding that the party challenging a final decision
bears the burden of proving CUE); Berger, 10
Vet.App. at 169 (“[T]he appellant, who always bears
the burden of persuasion on appeals to this Court,
bears an extra-heavy burden when the appeal is a
collateral attack, in the form of a CUE [motion],
concerning a final decision. A final decision is entitled
to a strong presumption of validity.”); Russell, 3
Vet.App. at 315.
IV. MANIFESTLY CHANGED OUTCOME
Alternatively, assuming that Wagner applies
retroactively and can support allegations of CUE in
final VA decisions, the 2016 Board did in fact assess
Mr. George’s CUE allegation as to both preexistence
and aggravation and Mr. George fails to establish
that the 2016 Board erred in concluding that the 1977
Board’s errors as to each prong would not have
manifestly changed the outcome of its 1977 decision.

51a
The 2016 Board conceded that the 1977 Board did not
discuss the relevant statute or regulation or explain
how there was clear and unmistakable evidence of a
preexisting condition or no aggravation of this
condition.5 R. at 10. Mr. George, however, must
demonstrate that these errors, based on the evidence
extant in 1977, would have manifestly changed the
outcome of the 1977 Board’s decision to deny benefits
for schizophrenia.
Based on the 1977 record, Mr. George suggests
that the Secretary could not have satisfied his
evidentiary burden to rebut the presumption of
soundness with clear and unmistakable evidence of
preexistence and lack of aggravation of his
schizophrenia. The 2016 Board noted, however, that
there was conflicting evidence of both preexistence
and aggravation, yet Mr. George does not allege that
this evidence was, as a matter of law, insufficient to
establish either preexistence or no aggravation of
schizophrenia. See Waltzer, 447 F.3d at 1380; Kent,
389 F.3d at 1383. In that regard, Mr. George does not
As noted in Gilbert v. Derwinski, prior to enactment of the
Veterans Judicial Review Act, the Board was not required to
provide reasons or bases for its decisions. 1 Vet.App. 49, 56
(1990) (“Prior to the enactment of the VJRA, the decisions of the
Board were required only to be in ‘writing and … contain the
findings of fact and conclusions of law separately stated.’ 38
U.S.C. § 4004(d) (1982). Congress amended 38 U.S.C. § 4004(d),
effective as of January 1, 1989, to mandate that a ‘decision of the
Board shall include … a written statement of the Board’s
findings and conclusions, and the reasons or bases for those
findings and conclusions, on all material issues of fact and law
presented on the record.’ 38 U.S.C. § 4004(d)(1) (1988) (emphasis
added).”).
5

52a
in any of his pleadings include analyses or arguments
as to specific evidence in 1977. Our dissenting
colleague makes these findings herself, even though
Mr. George’s pleadings are entirely silent in this
regard. See post at 20-22. We decline to find facts to
assist a represented appellant in addressing
arguments he has, presumably strategically, chosen
not to raise. See Robinson v. Peake, 21 Vet.App. 545,
554 (2008) (presuming that “an experienced attorney
in veteran’s law[ ] says what he means and means
what he says”), aff’d sub nom. Robinson v. Shinseki,
557 F.3d 1355 (Fed. Cir. 2009).
Here, we conclude that Mr. George has failed to
carry his burden of demonstrating that the 2016
Board erred in concluding that the 1977 Board’s
failure to cite the relevant statutory and regulatory
provisions and to explain how the evidence of record
rebutted both prongs of the presumption of soundness
was not outcome determinative. Without evidence of
a manifestly changed outcome, he has not
demonstrated that the 2016 Board’s finding of no
CUE in the 1977 Board decision is arbitrary,
capricious, an abuse of discretion, or otherwise not in
accordance with the law. Pierce, 240 F.3d at 1356;
Russell, 3 Vet.App. at 315. Although the Court may
have reached a different conclusion than the 1977
Board based on the evidence in the record, this fact
does not establish CUE in the 1977 Board decision or
error in the 2016 Board decision finding no CUE in
the 1977 Board decision. King v. Shinseki, 26
Vet.App. 433, 442 (2014) (“[T]here will be times when
the Court arrives at a different conclusion when
reviewing a motion to revise a prior, final decision

53a
than it would have had the matter been reviewed
under the standards applicable on direct appeal.”).
V. CONCLUSION
For the reasons stated above, the Court
AFFIRMS the March 1, 2016, Board decision finding
no CUE in the September 1977 Board decision.
BARTLEY, Judge, dissenting: I respectfully disagree
with the majority in two critical respects. First, I
believe
that
my
colleagues
fundamentally
mischaracterize Wagner v. Principi, 370 F.3d 1089
(Fed. Cir. 2004), particularly in light of Patrick v.
Nicholson, 242 F. App’x 695 (Fed. Cir. 2007) (Patrick
III) and Patrick v. Shinseki, 668 F.3d 1325 (Fed. Cir.
2011) (Patrick VI), leading them to incorrectly
conclude that Wagner contained a new understanding
or interpretation of 38 U.S.C. § 1111 (née 311) not in
effect in September 1977. Second, I believe that the
Board’s March 2016 conclusion that there was no
CUE in the September 1977 decision was arbitrary,
capricious, an abuse of discretion, or otherwise not in
accordance with law because, had the Board properly
applied the statutory presumption of soundness in
September 1977 and not analyzed Mr. George’s claim
as one for service connection based on aggravation of
a preexisting mental disorder, it would have had no
choice but to grant him service connection.
Accordingly, I must dissent from the majority’s
decision to affirm the March 2016 Board decision
currently on appeal.
Regarding the first matter, I disagree with the
majority’s characterization of Wagner and its effect on

54a
the state of the law regarding the presumption of
soundness. Although my colleagues insist that their
decision relates only to the issue of the finality of the
September 1977 decision, their finality analysis is
grounded in an implicit assumption that Wagner
contained a new understanding or interpretation of
section 1111. But Wagner did not, as my colleagues
suggest, contain a new understanding or
interpretation of section 1111 that would need to be
applied retroactively in order for Mr. George to
prevail on his CUE motion. Rather, the Federal
Circuit’s judicial construction of section 1111 in
Wagner provided “an authoritative statement of what
the statute meant before as well as after the decision
of the case giving rise to that construction.” Rivers v.
Roadway Express, Inc., 511 U.S. 298, 312-13 (1994);
see also Schwartz v. State, 361 P.3d 1161, 1180 (Haw.
2015) (explaining that when a court “announces a
legal principle grounded in its understanding of a
particular statute, it merely expresses in definitive
terms what that statute has always meant, both
before and after that decision is handed down”).
Although the Federal Circuit’s statement of the law
differed from VA’s pre-2003 interpretation of section
1111 set forth in 38 C.F.R. § 3.304(b), Wagner’s
implicit rejection of that interpretation did not
constitute a change in law. See State v. Ruiz, 164 A.3d
837, 844 (Conn. App. Ct. 2017) (“A decision that
corrects a mistaken interpretation of the law does not
constitute a change in the law.”). Instead, Wagner
recognized that VA had “misinterpreted the will of the
enacting Congress” and reaffirmed “what the statute
has meant continuously since the date when it

55a
became law.” Rivers, at 313 n.12; see United States v.
Peppers, 899 F.3d 211, 230 (3d Cir. 2018).
Because
“judicial
decisions
operate
retrospectively” in this manner, United States v.
Security Indus. Bank, 459 U.S. 70, 79 (1982),
Wagner’s statement of what section 1111 has always
meant cannot, as the majority concludes, only apply
prospectively to cases decided after Wagner was
issued in June 2004. Quite the contrary: the only way
to give proper effect to Rivers and its progeny is to
accept that Wagner merely explicated the law
governing the presumption of soundness since the
enactment of section 311, including the law extant in
September 1977 when the challenged Board decision
was issued. See United States v. City of Tacoma,
Wash., 332 F.3d 574, 580 (9th Cir. 2003) (“The theory
of a judicial interpretation of a statute is that the
interpretation gives the meaning of the statute from
its inception, and does not merely give an
interpretation to be used from the date of the
decision.”).
This view of the law is the most concordant with
constitutional separation of powers. As the Federal
Circuit declared in Wagner, the language of section
1111, though complicated, has always been “clear on
its face” and thus “susceptible of interpretation
without resort to Chevron deference.” 370 F.3d at
1093. In holding that the plain language of section
1111 mandated that “the government must show
clear and unmistakable evidence of both a preexisting
condition and a lack of in-service aggravation to
overcome the presumption of soundness for wartime
service,” the Federal Circuit decreed that “it [was]

56a
clear that Congress intended … to effectively convert
aggravation claims into ones for service connection
when the government fails to overcome the
presumption of soundness under section 1111.” Id. at
1096. In effect, the Federal Circuit ruled that
Congress left no room to debate the meaning and
mechanics of section 1111, meaning that, to the
extent that the principles set forth in Wagner
conflicted with VA’s interpretations of section 311 and
pre-2003 1111, the will of Congress, not VA, should
prevail. See Chevron, U.S.A., Inc. v. Nat. Res. Def.
Council, Inc., 467 U.S. 837, 842-43 (1984) (“If the
intent of Congress is clear, that is the end of the
matter; for the court, as well as the agency, must give
effect to the unambiguously expressed intent of
Congress.”).
This is precisely the result that the Federal
Circuit prescribed in Patrick III and VI. As my
colleagues recognize, ante at 8, the Federal Circuit in
Patrick III expressly held that an allegation that the
Board misapplied section 1111 “can serve as the basis
for grounding a CUE claim” because, “[u]nlike
changes in regulations and statutes, which are
prospective, our interpretation of a statute is
retrospective in that it explains what the statute has
meant since the date of enactment.” 242 F. App’x at
697 (citing Rivers, 511 U.S. at 312-13). Contrary to
the majority’s holding in this case, the Federal Circuit
concluded that “our interpretation of [section] 1111 in
Wagner did not change the law but explained what
[section] 1111 has always meant” and vacated the
decision and remanded the matter for the Court to
consider the CUE motion in light of Wagner. Id. Then,
when the case returned to the Federal Circuit for an

57a
EAJA dispute in Patrick VI, the Federal Circuit
reiterated that it had “soundly rejected” the argument
“that this court’s interpretation of section 1111 did
not apply retroactively in the context of a CUE claim.”
668 F.3d 1325, 1333 n.6 (Fed. Cir. 2011). Unlike my
colleagues, I am not willing to dismiss this
unambiguous and germane guidance from our
reviewing court, particularly not when that guidance
is grounded in the unalterable principle that veteranfriendly congressional intent holds primacy over a VA
interpretation that is less beneficial to veterans. See
Brown v. Gardner, 513 U.S. 115, 118-22 (1994)
(recognizing “the rule that interpretive doubt is to be
resolved in the veteran’s favor” and declining to defer
to VA’s regulatory interpretation of a statute that
“flies against the plain language of the statutory
text”).
Moreover, I do not share the majority’s concern
that deciding this case in accordance with Patrick III
and VI would “cause a tremendous hardship on an
already burdened VA system of administering
veterans benefits.” Ante at 14. The circumstances of
Wagner and this case are relatively narrow—both
cases involve application of a plain language judicial
interpretation of a statute to a claim that was denied
on the basis of a VA regulation that clearly conflicted
with that statute. But even if the Rivers’s theory of
judicial construction would apply more broadly in the
veterans’ benefits CUE context, I have no
reservations about requiring VA to remedy decadesold errors that prohibit otherwise deserving veterans
and their dependents from receiving the benefits to
which they are statutorily entitled. I simply cannot

58a
endorse a CUE regimen that is so willing to exchange
justice for administrative efficiency.6
Turning to the merits of the CUE motion, I am
convinced, unlike my colleagues, that the Board’s
March 2016 finding that the September 1977 Board
decision was not the product of CUE was arbitrary,
capricious, an abuse of discretion, or otherwise not in
accordance with law. Each of the three CUE
requirements is met in this case. First, consistent
with Rivers, Wagner, and Patrick III and VI, the
Board misapplied the law extant in 1977 because it
did not afford Mr. George the presumption of
soundness even though it failed to find a lack of inservice aggravation of schizophrenia by clear and
unmistakable evidence. See Wagner, 370 F.3d at 1096
(explaining that the presumption of soundness
applies, “even when there [i]s evidence of a
preexisting condition, if the government fail[s] to
show by clear and unmistakable evidence that a
veteran’s preexisting condition was not aggravated
[in service]”). To the contrary, the Board appears to
have applied the law regarding a claim for
Even assuming that Wagner announced a new rule of law and
raised a retroactivity issue, there is good reason to distinguish
this case from the Supreme Court’s other cases outlined by the
majority, which recognize that new rules of law do not apply
retroactively to civil cases that are final. The animating principle
in those cases was giving due respect to the finality of judicial
decisions. But, unlike the average civil case where there are only
very limited exceptions for collateral attack, Congress has
bestowed on veterans’ benefits claimants a statutory right to
attack a final decision based on CUE. It is against this unusual
backdrop, not that underlying the average civil case, that we
should review this question.
6

59a
aggravation under 38 U.S.C. § 353, which places the
burden to prove aggravation on the veteran, as
opposed to section 311, which shifts the burden to the
Secretary to show no aggravation by clear and
unmistakable evidence. R. at 1176 (faulting the
veteran for “fail[ing] to provide the Administration
with the further information requested in order that
further consideration may be given to the veteran’s
claim for aggravation” and concluding that his
“preexisting schizophrenia was not aggravated by his
military service” (citing 38 U.S.C. § 353)).
Second, that error is undebatable: The Board
found that the veteran’s “induction examination
reveals no psychiatric abnormality,” triggering
section 311, but the Board erroneously analyzed the
claim under section 353, with its attendant burdens,
without rebutting the aggravation prong of the
presumption of soundness by clear and unmistakable
evidence. This is an unequivocal violation of the law:
When no preexisting condition is noted upon
entry into service, the veteran is presumed to
have been sound upon entry. The burden then
falls on the government to rebut the
presumption of soundness by clear and
unmistakable evidence that the veteran’s
disability was both preexisting and not
aggravated by service …. [I]f the government
fails to rebut the presumption of soundness
under section 1111, the veteran’s claim is one
for service connection.
Wagner, 370 F.3d at 1096.

60a
Finally, the Board’s error was outcomedeterminative because, had the Board properly
applied the presumption of soundness, it would have
granted service connection for schizophrenia.7 The
Board expressly found that the first element of service
connection was satisfied. R. at 1176 (concluding that
“examinations subsequent to the veteran’s discharge
reveal that he has schizophrenia”).
The second element of service connection would
have been met if the proper presumption of soundness
analysis was conducted because the record in 1977 did
not contain clear and unmistakable evidence that
schizophrenia was not aggravated in service—
thereby establishing that schizophrenia was incurred
in service despite evidence that it preexisted service.
See Wagner, 370 F.3d at 1094 (adopting the
Government’s position that, when VA fails to rebut
the presumption of soundness, “whether and to what
extent the veteran was entitled to compensation for
the injury would be determined upon the assumption
that the injury was incurred during service”); Horn v.
Shinseki, 25 Vet.App. 231, 236 (2012) (holding that,
“except for conditions noted at induction, the
My colleagues accuse me of improperly finding facts on behalf
of Mr. George. Ante at 16. However, I am finding facts only to
the extent necessary to determine whether the error committed
by the Board in finding no CUE in the September 1977 decision
was prejudicial. See Simmons v. Wilkie, 30 Vet.App. 267, 283-84
(2018) (explaining that, once the Court finds error in the Board’s
determination that there was no CUE in a prior final rating or
Board decision, the Court may examine the facts underlying the
prior decision and find any facts necessary to determine whether
the Board’s error was harmless).
7

61a
presumption of soundness ordinarily operates to
satisfy the second [service-connection] requirement
without further proof”). Evidence need not be
uncontroverted to be clear and unmistakable, see Kent
v. Principi, 389 F.3d 1380, 1383 (Fed. Cir. 2004), and
I recognize that the record before the Board in
September 1977 contained conflicting evidence as to
whether schizophrenia was aggravated in service.
Compare R. at 1280-84 (Aug. 1975 Medical
Evaluation Board (MEB) finding of aggravation), with
R. at 1294 (Aug. 1975 Physical Evaluation Board
(PEB) finding of no aggravation). But because the
record evidence of a lack of aggravation in this case is
legally insufficient to constitute clear and
unmistakable evidence to rebut the second prong of
the presumption of soundness, schizophrenia must be
presumed to have been incurred in service. See
Kinnaman v. Principi, 4 Vet.App. 20, 27-28 (1993)
(noting that the burden of proof to rebut the prongs of
the presumption of soundness is “formidable” and
concluding that evidence supporting the Board’s
finding of preexistence that was not “absolutely
certain” did not rise to the level of clear and
unmistakable evidence in light of a contrary PEB
report). Thus, in the absence of clear and
unmistakable evidence of a lack of aggravation,
schizophrenia must be presumed to have been
incurred in service.
Finally, the third element of service connection is
satisfied via application of 38 C.F.R. § 3.303(b) (1977).
In September 1977, that regulation provided that
“[w]ith chronic disease shown as such in service (or
within the presumptive period under [38 C.F.R.]
§ 3.307) so as to permit a finding of service connection,

62a
subsequent manifestations of the same chronic
disease at any later date, however remote, are service
connected, unless clearly attributable to intercurrent
causes.” 38 C.F.R. § 3.303(b) (1977). As the Federal
Circuit explained in Walker v. Shinseki, pursuant to
§ 3.303(b)
[i]f a veteran can prove a chronic disease
“shown in service,” and there are no
intercurrent causes, the manifestation of the
chronic disease present at the time the
veteran seeks benefits establishes service
connection for the chronic disease. By treating
all subsequent manifestations as service
connected, the veteran is relieved of the
requirement to show a causal relationship
between the condition in service and the
condition for which disability compensation is
sought. In short, there is no “nexus”
requirement for compensation for a chronic
disease which was shown in service, so long as
there is an absence of intercurrent causes to
explain post-service manifestations of the
chronic disease.
708 F.3d 1331, 1335-36 (Fed. Cir. 2013) (quoting 38
C.F.R. § 3.303(b)); see Groves v. Peake, 524 F.3d 1306,
1309 (Fed. Cir. 2008) (“The plain language of
§ 3.303(b) establishes a presumption of service
connection (rebuttable only by ‘clearly attributable
intercurrent causes’) for a chronic disease which
manifests during service and then again ‘at any later
date, however remote.’” (quoting 38 C.F.R. § 3.303(b)).

63a
In its September 1977 decision, the Board
specifically found that Mr. George was diagnosed
with schizophrenia in service, R. at 1172 (citing R. at
1280, 1282 (Aug. 1975 MEB diagnoses of paranoid
schizophrenia); 1294 (Aug. 1975 PEB diagnosis of the
same)), and was later diagnosed with chronic
schizophrenia within the 1-year presumptive period
following service, R. at 1173 (citing a March 1976 VA
examiner’s “diagnosis of chronic undifferentiated
schizophrenic reaction”); see R. at 1244 (May 1976 RO
decision
denying
service
connection
for
“Schizophrenic Reaction, Chronic Undifferentiated
Type”). Because these Board findings are favorable to
the veteran and reflect that he was diagnosed with a
mental disorder in service that was shown to be
chronic within the relevant presumptive period, and
the record in September 1977 did not contain evidence
that attributed his then-current schizophrenia to an
intercurrent cause, § 3.303(b) should have been
applied and the linkage element of service connection
should have been presumptively established, without
the need to present any independent evidence of
linkage. See 38 C.F.R. § 3.309(a) (1977) (classifying
psychoses as chronic diseases).8
This is precisely the situation that the Federal
Circuit addressed in Groves, where it reversed a
Court decision affirming a Board decision that found
no CUE in a prior RO decision that failed to apply
Both this Court and the Federal Circuit have held that
schizophrenia is a psychosis within the meaning of § 3.309(a).
See Groves, 524 F.3d at 1309-10; Ford v. Gober, 10 Vet.App. 531,
535 (1997).

8

64a
§ 3.303(b) to a claim for service connection for
schizophrenia. Mr. Groves, like Mr. George, was
diagnosed with paranoid schizophrenia during
service, was medically discharged for that condition,
and
was
again
diagnosed
with
paranoid
schizophrenia “shortly after discharge.” Groves, 524
F.3d at 1310. The Federal Circuit in Groves held that
this Court “committed legal error by disregarding the
applicability of § 3.303(b) and requiring medical
evidence to establish a nexus between the two
diagnoses,” and concluded that proper application of
§ 3.303(b) to the diagnoses in the record established
CUE in the prior RO decision “as a matter of law”
because Mr. Groves was entitled to presumptive
service connection. Id. I see no principled basis upon
which to distinguish Groves from the instant case,
meaning that correction of the alleged error in this
case would have unquestionably resulted in a
manifestly different outcome for Mr. George.
Again, it is important to keep in mind the error
that Mr. George is seeking to remedy. The language
of section 311 in September 1977 was the same
language in section 1111 in June 2004 that the
Federal Circuit in Wagner described as “clear” and
susceptible of only one interpretation. 370 F.3d at
1093. The only reason that Mr. George was deprived
of the benefit of the presumption of soundness clearly
envisioned and expressed by Congress was that a VA
regulation, which was “inconsistent with the statute”
and “impose[d] a requirement not authorized by [the
statute],” dictated a different result. VA Gen. Coun.
Prec. 3-2003 (July 16, 2003). Because, under Rivers
and Patrick III and VI, the version of section 311
extant in September 1977 meant what the Federal

65a
Circuit in Wagner said that Congress clearly intended
it meant, VA’s failure to abide by that statutory
command constituted an undebatable and outcomedeterminative misapplication of the law. Because
CUE was designed to remedy precisely this type of
error, see Joyce v. Nicholson, 19 Vet.App. 36, 48
(2005); Russell v. Principi, 3 Vet.App. 310, 313-14
(1992) (en banc), I cannot agree with my colleagues
that, before the Wagner decision in 2004, VA’s failure
to rebut the statutory presumption of soundness by a
showing of clear and unmistakable evidence that a
condition both preexisted service and was not
aggravated by service could not constitute CUE.
Applying that analysis to this case, I would conclude
that the Board in March 2016 committed reversible
error in finding no CUE in the September 1977 Board
decision that denied service connection for
schizophrenia. Accordingly, I respectfully dissent.

66a
APPENDIX C
BOARD OF VETERANS’ APPEALS
DEPARTMENT OF VETERANS AFFAIRS
WASHINGTON, DC 20420
IN THE MATTER OF THE
MOTION OF KEVIN
R. GEORGE

[Redacted]

MAR 01 2016
DOCKET NO. 15-24 629

)
)
)

DATE

THE ISSUE
Whether there was clear and unmistakable error
(CUE) in the Board’s September 2, 1977 decision that
denied entitlement to service connection for
schizophrenia.
REPRESENTATION
Moving party represented by: Kenneth M. Carpenter,
Attorney at Law
ATTORNEY FOR THE BOARD
B. Elwood, Counsel
INTRODUCTION
The moving party served on active duty from June
1975 to September 1975.

67a
This matter comes before the Board of Veterans’
Appeals (Board) following the receipt of the moving
party’s December 2014 motion alleging CUE in a
September 2, 1977 Board decision.
FINDINGS OF FACT
1. On September 2, 1977, the Board issued a decision
denying entitlement to service connection for
schizophrenia.
2. The Board did not discuss the presumption of
soundness under 38 U.S.C. § 311 (1977) in its 1977
decision, but this error was not outcome
determinative and the outcome of the claim of
entitlement to service connection for schizophrenia
would not have been manifestly different but for the
Board’s misapplication of the law.
CONCLUSION OF LAW
CUE in the Board’s September 2, 1977 decision that
denied entitlement to service connection for
schizophrenia has not been demonstrated. 38
U.S.C.A. § 7111 (West 2014); 38 C.F.R. § 20.1404(a)
(2015).
REASONS AND BASES FOR FINDINGS AND
CONCLUSION
The Veterans Claims Assistance Act of 2000 (VCAA),
Pub. L. No. 106-475, 114 Stat. 2096 (Nov. 9, 2000)
(codified at 38 U.S.C.A. §§ 5100, 5102, 5103, 5103A,
5106, 5107, 5126 (West 2014) redefined VA’s duty to
assist the Veteran in the development of a claim. VA
regulations for the implementation of the VCAA were

68a
codified as amended at 38 C.F.R. §§ 3.102, 3.156(a),
3.159, and 3.326(a) (2015).
The United States Court of Appeals for Veterans
Claims (Court) has held that the VCAA is not
applicable to motions for revision of a decision on the
grounds of CUE. Livesay v. Principi, 15 Vet. App.165
(2001). Review for CUE in a prior Board decision is
based on the record that existed when that decision
was made. 38 C.F.R. § 20.1403(b).
Analysis
Under 38 U.S.C.A. § 7111, the Board has been
granted the authority to revise a prior decision of the
Board on the grounds of CUE.
CUE is a very specific and rare kind of “error.” It is
the kind of error, of fact or of law, that when called to
the attention of later reviewers compels the
conclusion, to which reasonable minds could not
differ, that the result would have been manifestly
different but for the error. Simply to claim CUE on
the basis that previous adjudications had improperly
weighed and evaluated the evidence can never rise to
the stringent definition of CUE. Similarly, neither
can broad-brush allegations of “failure to follow the
regulations” or “failure to give due process,” or any
other general, nonspecific claim of “error” Fugo v.
Brown, 6 Vet. App. 40, 43-44 (1993). ln addition,
failure to address a specific regulatory provision
involves harmless error unless the outcome would
have been manifestly different. Id. at 44.

69a
The Court has established a three-pronged test, each
of which must be met before CUE is established:
either (1) the correct facts, as they were known at the
time, were not before the adjudicator (i.e., more than
a simple disagreement as to how the facts were
weighed or evaluated) or the statutory or regulatory
provisions extant at the time were incorrectly applied,
(2) the error must be “undebatable” and of the sort
“which had it not been made, would have manifestly
changed the outcome at the time it was made,” and (3)
a determination that there was CUE must be based
on the record and law that existed at the time of the
prior adjudication in question. Damrel v. Brown, 6
Vet. App. 242, 245 (1994) (quoting in part Russell v.
Principi, 3 Vet. App. 310 (1992)).
In order to constitute CUE, the error must be of a type
that is outcome determinative. Glover v. West, 185
F.3d 1328 (Fed: Cir. 1999).
In his December 2014 motion, the moving party’s
representative argued that there was CUE in the
Board’s September 2, 1977 decision that denied
entitlement to service connection for schizophrenia.
Specifically, he argued that the Board misapplied the
presumption of soundness under 38 U.S.C. § 311
(1977), that the evidence of record at the time of the
Board’s decision “did not include the required
evidence necessary to rebut the presumption of
soundness,” and that service connection for
schizophrenia would have been granted had it not
been for the Board’s error. The representative
explained that there was relevant evidence that
demonstrated that the moving party was entitled to
the presumption of soundness, including an entrance

70a
examination which was negative for any pre-service
mental disorder, evidence of hospitalization for acute
schizophrenic reaction in service, and a favorable line
of duty determination dated in July 1975. These facts
“triggered the provisions of 38 U.S.C. § 311 (1977)”
and [a]bsent from the evidence extant was clear and
unmistakable evidence to rebut the presumption of
soundness.” The representative concluded that “the
evidence in this case does not clearly and
unmistakably indicate that [the moving party’s]
schizophrenia was not aggravated by service.”
At the time of the September 1977 Board decision, the
law provided that every veteran shall be taken to
have been in sound condition when examined,
accepted, and enrolled for service, except as to defects,
infirmities, or disorders noted at the time of the
examination, acceptance and enrollment, or where
clear and unmistakable evidence demonstrates that
the injury or disease existed before acceptance and
enrollment and was not aggravated by such service.
38 U.S.C. § 311 (1977).
The provisions of 38 U.S.C. § 311 (the precursor to
current 38 U.S.C.A. § 1111) were implemented by 38
C.F.R. § 3.304(b) (1977), which provided that a
veteran was be considered to have been in sound
condition when examined, accepted, and enrolled for
service, except as to defects, infirmities, or disorders
noted at entrance into service, or where clear and
unmistakable (obvious and manifest) evidence
demonstrates that an injury or disease existed prior
thereto. Thus, in conducting its presumption of
soundness analysis under 3.304(b) (1977), the Board
was not required to find clear and unmistakable

71a
evidence that the disability was not aggravated by
service.
The Board notes that in a precedent opinion that was
issued many years after the Board decision in
question, the VA General Counsel concluded that 38
C.F.R. § 3.304(b) conflicted with 38 U.S.C.A. § 1111,
and that the regulation was therefore invalid. See
VAOPGCPREC 3-2003 (2003). The United States
Court of Appeals for the Federal Circuit (Federal
Circuit) adopted the General Counsel’s position. See
Wagner v. Principi, 370 F.3d 1089 (Fed. Cir. 2004).
However, judicial decisions that formulate new
interpretations of the law subsequent to a VA decision
cannot be the basis of a valid CUE claim. Berger v.
Brown, 10 Vet. App. 166, 170 (1997). Moreover, VA
General Counsel has held that the Board’s application
of a subsequently-invalidated regulation, i.e., 38
C.F.R. 3.304(b) (l977), in a decision does not
constitute “obvious error” or provide a basis for
reconsideration of the decision. VAOPGCPREC 25-95,
61 Fed. Reg. 10065 (1996).
In any event, in Jordan v. Nicholson, 401 F.3d 1296,
1298-99 (Fed. Cir. 2005), the Federal Circuit
specifically held that the presumption of soundness
interpretation articulated in Wagner v. Principi, 370
F.3d 1089 (Fed. Cir. 2004) does not have retroactive
application in a CUE case. Thus, the failure of the
Board to find that the moving party’s condition was
not clearly and unmistakably aggravated by service
as part of its presumption of soundness analysis
cannot be considered to be CUE.

72a
The evidence of record at the time of the Board’s
September 1977 decision included service treatment
records, which reveal that the moving party’s May
1975 entrance examination was normal other than for
a vision defect. He did not report any psychiatric
abnormalities on a May 1975 report of medical history
form completed for purposes of entrance into service.
Shortly following his entrance into service, the
moving party was admitted to the hospital with a
diagnosis of acute situational reaction/non-specific
psychotic episode after an assessment had revealed a
thought disorder with marked looseness of
associations and tangentiality, agitation, and a tense
and inappropriate affect. It was noted that his
performance in recruit training had been poor, and he
had a belligerent attitude. He reported that he had
been in a juvenile detention home for approximately
19 months because of purse snatching, and that he
had begun to hear voices in approximately April 1975.
He felt increasingly pressured and joined the military
to get away from his hometown.
Examinations revealed that the moving party was
somewhat hyperactive and inappropriate, that he was
easily distracted, that he spoke spontaneously with a
loose and rambling ideation, that his associations
were loose, and that he had a flat affect.
Concentration, abstractions, and insight were all
decreased, there was marked paranoid and religious
flavor to the moving party’s thoughts, and he
reportedly experienced auditory hallucinations. Also,
his memory was confused and his mood was tense. He
was treated with medications and group, individual,
and milieu psychotherapy. He remained slightly

73a
hyperactive and a bit inappropriate, but he lost most
of his psychotic symptomatology and was eventually
able to behave appropriately and give a reasonable
history. He was diagnosed as having an acute
schizophrenic reaction that occurred in line of duty
and was not due to his own misconduct, and he was
returned to the Recruit Evaluation Unit for
separation from service.
An August 1975 Medical Board report indicates that
the moving party had evidenced paranoid delusions,
ideas of reference, and thought disorganization. He
reported that he was in his usual state of health until
May 1975, at which time he was en route to Utah to
join the military. He first began to experience
psychiatric symptoms during this trip. For example,
he spoke with his cousins on the telephone and felt as
if they were not really his cousins, he felt as if people
in the airport lobby were giving him signs and that a
bus driver was communicating with him through
sequences, he thought that electronics were being
“used on him,” he feared that he was being watched
by others, and he heard voices and was pre-occupied
with religion. He subsequently enlisted in the
military, did not report his problems at the time of his
entrance into service, and was found fit for duty. He
began to experience symptomatology during his early
days of processing, was sent for a psychiatric
evaluation, and was later admitted to the hospital for
observation and treatment.
Following the period of hospitalization (as described
above), the moving party was placed in a training
platoon. In August 1975, he reported multiple vague
complaints and was again sent to be evaluated by a

74a
psychiatrist. He appeared to be quite disturbed and
apprehensive, he was withdrawn and tearful, and he
tightly clutched a towel to his face. Examination
revealed that he had looseness of association,
tangential thought, and a blunted and inappropriate
affect. He reportedly continued to experience auditory
hallucinations, paranoid ideas of reference, and
delusions. There was no past history of any
psychiatric care prior to service. He was treated
supportively and continued to be supervised by a
psychiatrist. He essentially appeared in his
pre-enlistment state complicated by service
aggravated stress, both prior to initial hospitalization
and after training attempts. He was diagnosed as
having paranoid schizophrenia.
The Medical Board concluded that the moving party
was unfit for further military service as a result of
physical disability, and that the physical disability
had its onset prior to enlistment. As a result of
conditions peculiar to service, his disability had
progressed at a rate greater than was usual for the
disorder and was considered to have been aggravated
by service.
An
August
1975
“Physical
Evaluation
Board-Proceedings and Findings” form (NAVSO
6100/16) includes a diagnosis of paranoid
schizophrenia, “EPTE, not aggravated, not ratable.”
The moving party was found to be unfit for service
because of physical disability.
The moving party submitted a claim of service
connection for a psychiatric disability (identified as
psychosis) in December 1975. A February 1976

75a
“Initial Team Conference Summary” indicates that
the moving party reportedly experienced visual and
auditory hallucinations, a fear of harming himself
and others (i.e. homicidal and suicidal thoughts), and
an inability to keep a job. He also experienced
impaired concentration, poor motivation, and poor
impulse control. He was diagnosed as having
schizophrenia, paranoid type.
A VA psychiatric examination was conducted in
March 1976 and the moving party reported during the
examination that he did not experience any
psychiatric problems until after he entered service.
He decompensated during service and was
discharged. He again experienced strange ideas (e.g.
homicidal ideation) in December 1975, was admitted
for inpatient psychiatric treatment for 3 weeks, and
continued to be treated on an outpatient basis. He had
been prescribed medication, but he was unable to
continue the medication because it made him drowsy.
Examination revealed that the moving party
appeared tense and slightly depressed. He reportedly
experienced auditory hallucinations and was unable
to think clearly. His insight and judgment were fair.
A diagnosis of chronic schizophrenic reaction,
undifferentiated type, was provided.
A November 1976 statement from H.R. Wannen,
LMSW includes an opinion that the moving party was
not employable due to paranoid schizophrenia. He
was not overtly psychotic, but he still retained an
encapsulated delusional system, he remained
suspicious of others, and would become anxious with
pressure to preform or in any situation where he was

76a
confined to one place or in the presence of others. His
first known psychotic episode was in July 1975, and
he had been psychotic the month prior to the
November 1976 statement.
During a February 1977 VA Social and Industrial
Survey, the moving party reported that he had been
in juvenile court many times during his childhood,
that he went to a youth camp for robbery and purse
snatching, and that he was expelled from school in the
11th grade due to disciplinary problems. He was in
good health prior to service and was diagnosed as
having a schizophrenic reaction with underlying
paranoid personality while in service. He denied
having ever experienced auditory hallucinations prior
to service. He was treated at various facilities for
psychiatric problems following his separation from
service and was not on any medication. At the time of
the February 1977 evaluation, he was suspicious,
agitated, rigid, and guarded.
In its September 1977 decision, the Board explained
that the report of the moving party’s entrance
examination revealed that he was not experiencing
any psychiatric abnormality. The Board described the
psychiatric problems that the moving party had
experienced in service and explained that an opinion
was formed in service that he had schizophrenia
which existed prior to service and had been
aggravated by service (an opinion which was
confirmed by the Medical Board). A subsequent
physical evaluation board, after reviewing the
proceedings and findings, made a diagnosis of
paranoid schizophrenia which had existed prior to
service, but which was not aggravated by service. The

77a
Board also described the psychiatric problems that
the moving party experienced after service and the
treatment he had received.
The Board concluded that the moving party’s
schizophrenia existed prior to service. While he
exhibited symptoms of schizophrenia shortly after his
entrance into service, a careful evaluation by a
physical evaluation board resulted in a conclusion
that there was no aggravation of his pre-existing
schizophrenia. While examinations subsequent to
service revealed that the moving party had
schizophrenia, they did not address the question of
whether the pre-existing condition was aggravated by
service. Hence, the Board concluded that the moving
party’s pre-existing schizophrenia is not aggravated
by service and his claim of service connection for that
disability was denied.
Initially, the Board finds that the provisions
pertaining to the presumption of soundness (i.e. 38
U.S.C. § 311 (1977) and 38 C.F.R. § 3.304(b) (1977))
were not discussed in the September 1977 Board
decision. Despite the fact that the moving party’s May
1975 entrance examination was normal and that the
presumption of soundness was for application, the
Board did not cite the applicable presumption of
soundness provisions, did not set forth the statutory
or regulatory language pertaining to the presumption
of soundness, and did not otherwise explain either
how there was clear and unmistakable evidence that
the moving party’s claimed psychiatric disability
existed prior to service or how there was clear and
unmistakable evidence that any such pre-existing
disability was not aggravated in service.

78a
Nevertheless, despite the fact that the Board did not
discuss the application of 38 U.S.C. § 311 (1977) and
38 C.F.R. § 3.304(b) (1977), this error was not
outcome determinative and the inclusion of such a
discussion would not have resulted in a manifestly
different outcome to which reasonable minds could
not differ. Although there were no psychiatric
abnormalities present during the moving party’s May
1975 entrance examination, he did provide reports of
psychiatric symptoms prior to service (albeit
conflicting reports). For example, he reported during
his first hospitalization in service that he had begun
to hear voices prior to service in approximately April
1975, that he felt increasingly pressured, and that he
joined the military to get away from his hometown.
Also, the August 1975 Medical Board report indicates
that the moving party had reportedly been in his
usual state of health until he was en route to Utah to
join the military in May 1975 and that he first began
to experience psychiatric symptoms during this trip.
Moreover, there was a medical evidence of record that
the moving party’s psychiatric disability pre-existed
service and was either aggravated or not aggravated
by service. The Medical Board concluded that the
disability had its onset prior to enlistment and that it
was considered to have been aggravated by service.
The Physical Evaluation Board provided a different
finding in August 1975 that the moving party’s
paranoid schizophrenia was not aggravated in
service.
In light of the conflicting lay and medical evidence as
to whether the moving party’s claimed psychiatric
disability pre-existed service and was aggravated by

79a
service, the Board’s September 1977 finding that his
schizophrenia pre-existed service and was not
aggravated by service was the result of how the
evidence in the claims file at the time was weighed
and evaluated. The moving party has not claimed that
any specific evidence was missing from the claims file
at the time of the September 1977 decision, the
inclusion of which would have resulted in a
manifestly different outcome to which reasonable
minds could not differ. Thus, even though the Board
erred by not discussing the application of 38 U.S.C.
§ 311 (1977) and 38 C.F.R. § 3.304(b) (1977) in its
decision, this error was not outcome determinative
because the Board nonetheless considered all
relevant evidence of record at the time of its
September 1977 decision.
The moving party’s argument that there was no clear
and unmistakable evidence to rebut the presumption
of soundness and that “the evidence in this case does
not clearly and unmistakably indicate that [the
moving party’s] schizophrenia was not aggravated by
service” is essentially a contention that the Board
improperly weighed and evaluated the evidence in the
claims file at the time of its September 1977 decision.
However, as noted above, any disagreement with how
the Board evaluated the evidence (and how it
concluded from the evidence that the Veteran’s
claimed psychiatric disability pre-existed service and
was not aggravated by service) is inadequate to rise
to the level of CUE. Simmons v. West, 14 Vet. App. 84,
89 (2000); Luallen v. Brown, 8 Vet. App. 92, 95 (1995).
In sum, the moving party has not presented evidence
of CUE in the Board’s September 2, 1977 decision that

80a
denied entitlement to service connection for
schizophrenia. Therefore, the motion to reverse or
revise that decision must be denied.
ORDER
The motion to reverse or revise the Board’s September
2, 1977 decision which denied entitlement to service
connection for schizophrenia, on the grounds of CUE,
is denied.
/s/ S. Bush
S. BUSH
Veterans Law Judge, Board of Veterans’ Appeals

81a
APPENDIX D
BOARD OF VETERANS’ APPEALS
WASHINGTON, D.C. 20420
IN THE APPEAL OF
KEVIN R. GEORGE
[REDACTED]

)
)
)
)
)
)
)

FINDINGS AND
DECISION
DATE SEP 2 1977
DOCKET NO.
76-23 227

THE ISSUE
Service connection for schizophrenia.
REPRESENTATION
Appellant represented by: American National Red
Cross
CONSULTATIONS BY THE BOARD
Marshall O. Potter, Jr., Staff Legal Adviser
ACTIONS LEADING TO PRESENT
APPELLATE STATUS
The veteran has appealed a decision by the regional
office which denied his claim for service connection for
schizophrenia on the ground that the disability
existed prior to his entry onto active duty and it was
not aggravated by military service. This case was
remanded in order that a copy of the veteran’s high

82a
school grade transcript and behavior record be
obtained; that medical record pertaining to a
psychiatric evaluation made in connection with his
confinement at the Atchison Correctional Facility be
secured; that the medical records from the Job Corps
relative to any psychiatric evaluation be obtained;
that the records from the Kansas University Medical
Center relative to treatment afforded the veteran in
April and May 1975 be secured; and that a social
survey as to the veteran’s present behavior and habits
be secured. This development has been completed as
far as possible and the case recertified to us on the
same issue.
CONTENTIONS
It is contended by and on behalf of the veteran that
his schizophrenia was aggravated by his military
service.
THE EVIDENCE
The veteran had honorable service from June 1975 to
September 1975.
A report of his induction examination reveals no
psychiatric abnormality.
The service medical records reveal that one week
after his entry onto active duty the veteran was
hospitalized for treatment and psychiatric evaluation
at a service facility where he was observed to have
loose associations, a flat affect, and conducted himself
in a bizarre manner. He was considered to have
undergone a nonspecific psychotic episode. In August

83a
1975 the veteran sought further treatment and
complained of mistreatment by noncommissioned
officers. At that time he was considered to have an
anxiety reaction. Subsequent psychiatric evaluation
revealed the veteran to be disturbed, apprehensive,
withdrawn and to have a blunted affect. An opinion
was formed that the veteran had schizophrenia which
existed prior to service and had been aggravated by
his active duty. This opinion was confirmed by a
medical board. A subsequent physical evaluation
board, after reviewing the proceedings and findings,
made a diagnosis of paranoid schizophrenia, which
had existed prior to service, but opined that the
condition had not been aggravated by his military
service.
In February 1976 the veteran was hospitalized at a
State facility after he had been involved in a fight.
While
hospitalized
he
reported
auditory
hallucinations and visual illusions. He demonstrated
occasional homicidal and suicidal thought and his
insight was considered to be poor. He had problems in
concentrating and motivating himself and controlling
his impulses. His thinking was observed to be
confused. His prognosis was considered to be poor.
At an Administration examination in March 1976 the
veteran denied ever having psychiatric problems
prior to his entry onto active duty and stated that
subsequent to his service he had worked for two
weeks as an assembler but lost his job because he had
left it without seeking permission. He gave a history
of undergoing severe pressures while in service and of
suffering a breakdown. He also reported that he had
been hospitalized at a State facility and was

84a
continuing treatment at that facility as an outpatient.
On examination he was observed to be tense and
depressed. His insight and judgment were fair. He
reported that he heard voices and noises, and could
not think clearly. A diagnosis of chronic
undifferentiated schizophrenic reaction was made.
The file reflects that the veteran was asked to provide
the name and address of his high school and to
authorize release of information pertaining to his
achievement and behavioral record; asked to provide
a current medical authorization for the release of
information from the Atchison Correctional Facility
and the Kansas University Medical Center; and to
furnish the name and address of the Job Corps
employer so that a copy of a psychiatric evaluation
report could be obtained. The file reflects that none of
this information was provided by the veteran.
In February 1977 an Administration social and
industrial survey was performed. At that time he
reported an unstable childhood, involvement with
juvenile authorities and having been expelled from
school as a disciplinary problem. He reported that he
had worked for 10 days through a program for
handicapped workers but because of difficulty in
adjusting to the work he was terminated. This was
confirmed by his employer. He reported having
undergone treatment for schizophrenia at both State,
Administration, and private facilities. The social
worker opined that the veteran was preoccupied with
receiving service-connected compensation.
A psychiatric examination conducted at the same
time revealed the veteran to have an inappropriate

85a
affect, anger, hostility, poor judgment and insight, to
be depressed, to have auditory hallucinations, to be
guarded, distrustful, agitated and tense. The
diagnosis of chronic undifferentiated schizophrenic
reaction with paranoid features was made.
The report from the State health facility in November
1976 reveals the veteran to be suffering from a
paranoid schizophrenia in partial remission.
THE LAW AND REGULATIONS
Service connection may be granted for disability
resulting from disease or injury incurred in or
aggravated by wartime service. (38 U.S.C. 310)
A preexisting injury or disease will be considered to
have been aggravated by active wartime service,
where there is an increase in disability during such
war service, unless there is clear and unmistakable
evidence that the increase in disability is due to the
natural progress of the condition. Aggravation may
not be conceded where the disability underwent no
increase in severity during service on the basis of all
the evidence of record pertaining to the
manifestations of the disability prior to, during and
subsequent to service. (38 U.S.C. 353; 38 C.F.R.
3.306(b))
DISCUSSION AND EVALUATION
The medical evidence of record persuades us that the
veteran’s schizophrenia existed prior to his entry onto
active duty. While the veteran exhibited symptoms of
schizophrenia shortly after his entry onto active duty,

86a
a careful evaluation by physical evaluation board
resulted in a conclusion that there was no aggravation
of his preexisting schizophrenia. While examinations
subsequent to the veteran’s discharge reveal that he
has schizophrenia, they do not address themselves to
the question of whether the preexisting condition was
aggravated by his military service. We note as
significant that the veteran has failed to provide the
Administration with the further information
requested in order that further consideration may be
given to the veteran’s claim for aggravation.
Accordingly, on the basis of the medical evidence of
record, we conclude that the veteran’s preexisting
schizophrenia was not aggravated by his military
service. In the event that the veteran secures further
information that he considers will support a claim for
aggravation of the preexisting condition, he can
always reopen his claim.
FINDINGS OF FACT
1. The veteran’s schizophrenia existed prior to
military service.
2. The veteran’s preexisting schizophrenia was not
aggravated by his military service.
CONCLUSION OF LAW
Entitlement to service connection for schizophrenia
has not been established.
(38 U.S.C. 310, 353; 38 C.F.R. 3.306(b))

87a
DECISION
The appeal is denied.
/s/ A. C. White
A. C. White

/s/ D. H. Leeper, Jr., M.D.
D. H. Leeper, Jr., M.D.
/s/ W. B. Morris
W. B. Morris

88a
APPENDIX E
Not published
NON-PRECEDENTIAL
UNITED STATES COURT OF APPEALS FOR
VETERANS CLAIMS
No. 16-2174
KEVIN R. GEORGE,

APPELLANT,

V.
ROBERT L. WILKIE,
SECRETARY OF
VETERANS AFFAIRS,

APPELLEE.

Before DAVIS, Chief Judge, and BARTLEY
and MEREDITH, Judges.
ORDER
Note: Pursuant to U.S. Vet. App. R. 30(a),
this action may not be cited as precedent.
On January 4, 2019, in a panel decision, the Court
affirmed the March 1, 2016, Board of Veterans’
Appeals (Board) decision that found no clear and
unmistakable error in a September 1977 Board
decision that denied entitlement to VA disability
compensation benefits for schizophrenia. On
January 24, 2019, the appellant filed a timely motion
for reconsideration. “[A] motion for … panel
[reconsideration] … shall state the points of law or
fact that the party believes the Court has overlooked

89a
or misunderstood.” U.S. VET. APP. R. 35(e)(1). The
Court did not overlook or misunderstand any points
of law or fact that was properly before it. The
appellant has not presented any argument that
warrants reconsideration by the panel.
Upon consideration of the foregoing, it is
ORDERED that the motion for reconsideration by
the panel is denied.
DATED: March 18, 2019
Copies to:
Kenneth M. Carpenter, Esq.
VA General Counsel (027)

PER CURIAM.

90a
APPENDIX F
Not Published
UNITED STATES COURT OF APPEALS FOR
VETERANS CLAIMS
NO: 16-2174
KEVIN R. GEORGE, APPELLANT,
V.
ROBERT L. WILKIE,
SECRETARY OF VETERANS AFFAIRS,
APPELLEE.
JUDGMENT
The Court has issued a decision in this case, and
has acted on a motion under Rule 35 of the Court’s
Rules of Practice and Procedure.
Under Rule 36, judgment is entered and effective
this date.
Dated: March 18, 2019

FOR THE COURT:
GREGORY O. BLOCK
Clerk of the Court
By: /s/ Anthony R. Wilson
Deputy Clerk

Copies to:
Kenneth M. Carpenter, Esq.
VA General Counsel (027)

91a
APPENDIX G
United States Code
Title 38. Veterans’ Benefits
38 U.S.C. § 1111
§ 1111. Presumption of sound condition
For the purposes of section 1110 of this title, every
veteran shall be taken to have been in sound condition
when examined, accepted, and enrolled for service,
except as to defects, infirmities, or disorders noted at
the time of the examination, acceptance, and
enrollment, or where clear and unmistakable
evidence demonstrates that the injury or disease
existed before acceptance and enrollment and was not
aggravated by such service.

92a
APPENDIX H
United States Code
Title 38. Veterans’ Benefits
38 U.S.C. § 5109A
§ 5109A. Revision of decisions on grounds of
clear and unmistakable error
(a) A decision by the Secretary under this chapter is
subject to revision on the grounds of clear and
unmistakable error. If evidence establishes the error,
the prior decision shall be reversed or revised.
(b) For the purposes of authorizing benefits, a rating
or other adjudicative decision that constitutes a
reversal or revision of a prior decision on the grounds
of clear and unmistakable error has the same effect
as if the decision had been made on the date of the
prior decision.
(c) Review to determine whether clear and
unmistakable error exists in a case may be instituted
by the Secretary on the Secretary's own motion or
upon request of the claimant.
(d) A request for revision of a decision of the Secretary
based on clear and unmistakable error may be made
at any time after that decision is made.
(e) Such a request shall be submitted to the Secretary
and shall be decided in the same manner as any other
claim.

93a
APPENDIX I
United States Code
Title 38. Veterans’ Benefits
38 U.S.C. § 7111
§ 7111. Revision of decisions on grounds of
clear and unmistakable error
(a) A decision by the Board is subject to revision on
the grounds of clear and unmistakable error. If
evidence establishes the error, the prior decision shall
be reversed or revised.
(b) For the purposes of authorizing benefits, a rating
or other adjudicative decision of the Board that
constitutes a reversal or revision of a prior decision of
the Board on the grounds of clear and unmistakable
error has the same effect as if the decision had been
made on the date of the prior decision.
(c) Review to determine whether clear and
unmistakable error exists in a case may be instituted
by the Board on the Board's own motion or upon
request of the claimant.
(d) A request for revision of a decision of the Board
based on clear and unmistakable error may be made
at any time after that decision is made.
(e) Such a request shall be submitted directly to the
Board and shall be decided by the Board on the
merits.

94a
(f) A claim filed with the Secretary that requests
reversal or revision of a previous Board decision due
to clear and unmistakable error shall be considered to
be a request to the Board under this section, and the
Secretary shall promptly transmit any such request
to the Board for its consideration under this section.

95a
APPENDIX J
Code of Federal Regulations
Title 38. Pensions, Bonuses, and Veterans’ Relief
38 C.F.R. § 3.105 (1997)
§ 3.105. Revision of decisions
The provisions of this section apply except where an
award was based on an act of commission or omission
by the payee, or with his or her knowledge
(§ 3.500(b)); there is a change in law or a Department
of Veterans Affairs issue, or a change in
interpretation of law or a Department of Veterans
Affairs issue (§ 3.114); or the evidence establishes
that service connection was clearly illegal. The
provisions with respect to the date of discontinuance
of benefits are applicable to running awards. Where
the award has been suspended, and it is determined
that no additional payments are in order, the award
will be discontinued effective date of last payment.
(a) Error. Previous determinations which are final
and binding, including decisions of service connection,
degree of disability, age, marriage, relationship,
service, dependency, line of duty, and other issues,
will be accepted as correct in the absence of clear and
unmistakable error. Where evidence establishes such
error, the prior decision will be reversed or amended.
For the purpose of authorizing benefits, the rating or
other adjudicative decision which constitutes a
reversal of a prior decision on the grounds of clear and
unmistakable error has the same effect as if the
corrected decision had been made on the date of the

96a
reversed decision. Except as provided in paragraphs
(d) and (e) of this section, where an award is reduced
or discontinued because of administrative error or
error in judgment, the provisions of § 3.500(b)(2) will
apply.
***

97a
APPENDIX K
Code of Federal Regulations
Title 38. Pensions, Bonuses, and Veterans’ Relief
38 C.F.R. § 3.105
§ 3.105. Revision of decisions
The provisions of this section apply except where an
award was based on an act of commission or omission
by the payee, or with his or her knowledge
(§ 3.500(b)); there is a change in law or a Department
of Veterans Affairs issue, or a change in
interpretation of law or a Department of Veterans
Affairs issue (§ 3.114); or the evidence establishes
that service connection was clearly illegal. The
provisions with respect to the date of discontinuance
of benefits are applicable to running awards. Where
the award has been suspended, and it is determined
that no additional payments are in order, the award
will be discontinued effective date of last payment.
(a)(1) Error in final decisions. Decisions are final
when the underlying claim is finally adjudicated as
provided in § 3.160(d). Final decisions will be
accepted by VA as correct with respect to the
evidentiary record and the law that existed at the
time of the decision, in the absence of clear and
unmistakable error. At any time after a decision is
final, the claimant may request, or VA may initiate,
review of the decision to determine if there was a clear
and unmistakable error in the decision. Where
evidence establishes such error, the prior decision will
be reversed or amended.

98a
(i) Definition of clear and unmistakable error. A
clear and unmistakable error is a very specific and
rare kind of error. It is the kind of error, of fact or
of law, that when called to the attention of later
reviewers compels the conclusion, to which
reasonable minds could not differ, that the result
would have been manifestly different but for the
error. If it is not absolutely clear that a different
result would have ensued, the error complained of
cannot be clear and unmistakable. Generally,
either the correct facts, as they were known at the
time, were not before VA, or the statutory and
regulatory provisions extant at the time were
incorrectly applied.
(ii) Effective date of reversed or revised decisions.
For the purpose of authorizing benefits, the rating
or other adjudicative decision which constitutes a
reversal or revision of a prior decision on the
grounds of clear and unmistakable error has the
same effect as if the corrected decision had been
made on the date of the reversed decision. Except
as provided in paragraphs (d) and (e) of this
section, where an award is reduced or
discontinued because of administrative error or
error in judgment, the provisions of § 3.500(b)(2)
will apply.
(iii) Record to be reviewed. Review for clear and
unmistakable error in a prior final decision of an
agency of original jurisdiction must be based on
the evidentiary record and the law that existed
when that decision was made. The duty to assist
in § 3.159 does not apply to requests for revision
based on clear and unmistakable error.

99a
(iv) Change in interpretation. Clear and
unmistakable error does not include the otherwise
correct application of a statute or regulation
where, subsequent to the decision being
challenged, there has been a change in the
interpretation of the statute or regulation.
(v) Limitation on Applicability. Decisions of an
agency of original jurisdiction on issues that have
been decided on appeal by the Board or a court of
competent jurisdiction are not subject to revision
under this subsection.
(vi) Duty to assist not applicable. For examples of
situations that are not clear and unmistakable
error see 38 CFR 20.1403(d).
(vii) Filing Requirements—
(A) General. A request for revision of a decision
based on clear and unmistakable error must be
in writing, and must be signed by the requesting
party or that party's authorized representative.
The request must include the name of the
claimant; the name of the requesting party if
other than the claimant; the applicable
Department of Veterans Affairs file number; and
the date of the decision to which the request
relates. If the applicable decision involved more
than one issue, the request must identify the
specific issue, or issues, to which the request
pertains.
(B) Specific allegations required. The request
must set forth clearly and specifically the alleged

100a
clear and unmistakable error, or errors, of fact or
law in the prior decision, the legal or factual
basis for such allegations, and why the result
would have been manifestly different but for the
alleged error. Non-specific allegations of failure
to follow regulations or failure to give due
process, or any other general, non-specific
allegations of error, are insufficient to satisfy the
requirement of the previous sentence.
(2) Error in binding decisions prior to final
adjudication. Prior to the time that a claim is finally
adjudicated, previous decisions which are binding
will be accepted as correct by the agency of original
jurisdiction, with respect to the evidentiary record
and law existing at the time of the decision, unless
the decision is clearly erroneous, after considering
whether any favorable findings may be reversed as
provided in § 3.104(c).
***

101a
APPENDIX L
Code of Federal Regulations
Title 38. Pensions, Bonuses, and Veterans’ Relief
38 C.F.R. § 20.1403
§ 20.1403. What constitutes clear and
unmistakable error; what does not
(a) General. Clear and unmistakable error is a very
specific and rare kind of error. It is the kind of error,
of fact or of law, that when called to the attention of
later reviewers compels the conclusion, to which
reasonable minds could not differ, that the result
would have been manifestly different but for the
error. Generally, either the correct facts, as they were
known at the time, were not before the Board, or the
statutory and regulatory provisions extant at the time
were incorrectly applied.
(b) Record to be reviewed—
(1) General. Review for clear and unmistakable
error in a prior Board decision must be based on the
record and the law that existed when that decision
was made.
(2) Special rule for Board decisions on legacy
appeals issued on or after July 21, 1992. For a Board
decision on a legacy appeal as defined in § 19.2 of
this chapter issued on or after July 21, 1992, the
record that existed when that decision was made
includes relevant documents possessed by the
Department of Veterans Affairs not later than 90
days before such record was transferred to the

102a
Board for review in reaching that decision, provided
that the documents could reasonably be expected to
be part of the record.
(c) Errors that constitute clear and unmistakable
error. To warrant revision of a Board decision on the
grounds of clear and unmistakable error, there must
have been an error in the Board’s adjudication of the
appeal which, had it not been made, would have
manifestly changed the outcome when it was made. If
it is not absolutely clear that a different result would
have ensued, the error complained of cannot be clear
and unmistakable.
(d) Examples of situations that are not clear and
unmistakable error—
(1) Changed diagnosis. A new medical diagnosis
that “corrects” an earlier diagnosis considered in a
Board decision.
(2) Duty to assist. The Secretary’s failure to fulfill
the duty to assist.
(3) Evaluation of evidence. A disagreement as to
how the facts were weighed or evaluated.
(e) Change in interpretation. Clear and unmistakable
error does not include the otherwise correct
application of a statute or regulation where,
subsequent to the Board decision challenged, there
has been a change in the interpretation of the statute
or regulation.

103a
APPENDIX M
Kenneth M. Carpenter
CARPENTER, CHARTERED
1525 Southwest Topeka Boulevard
Post Office Box 2099
Topeka, Kansas 66601-2099
(785) 357-5251
BEFORE THE BOARD OF VETERANS’ APPEALS
Re: CLAIM OF KEVIN R. GEORGE FOR
DISABILITY COMPENSATION
CSS: [REDACTED[
REQUEST FOR REVISION OF THE
DECISION OF THE BOARD
DATED SEPTEMBER 2, 1977
Authority for Revision
Congress permits a disappointed veteran to
challenge a final decision of the Board on the grounds
of clear and unmistakable error (“CUE”). 38 U.S.C.
§ 7111. This motion asks you to review the Board’s
prior decision dated September 2, 1977, to determine
whether the Board correctly denied Mr. George
service connected compensation for his disability
resulting from schizophrenia by failing to correctly
apply 38 U.S.C. § 311 (1977).
Chronology
Mr. George had honorable service from June 10,
1975 to September 30, 1975. Mr. George’s entrance
examination to service was negative for any

104a
psychiatric disability, During service Mr. George was
hospitalized for acute schizophrenic reaction. He was
given a medical board and was medically discharged
from service for schizophrenia. The record contains a
favorable line of duty determination dated July 11,
1975. An August 14, 1975 medical board report
indicated that Mr. George’s condition existed prior to
service but was aggravated by service. A May 17, 1976
rating decision denied Mr. George service connected
compensation for his disability from schizophrenia on
the basis that although a diagnosis was not made
prior to service, the symptoms existed prior to service
with acute exacerbation during service. Mr. George
appealed to the Board of Veterans Appeals which
denied Mr. George service connected compensation
for his disability from schizophrenia.
Specific Allegation of Error
Mr.
George,
through
his
attorney’s
representative, specifically alleges that the Board
made a clear and unmistakable error in its decision
by failing to correctly apply the provisions of 38 U.S.C.
§ 311 (1977). Specifically, Mr. George was entitled to
the benefit of the presumption of soundness unless
rebutted by clear and unmistakable evidence. The
record before the Board did not include the required
evidence necessary to rebut the presumption of
soundness.
Evidence Extant at the Time of the
September 2, 1977 Board Decision.
Of record at the time of the September 2, 1977,
Board decision included multiple items of relevant

105a
evidence which demonstrated that Mr. George was
entitled to the benefit of the presumption of
soundness. First, Mr. George’s entrance examination
to service was negative for any preservice mental
disorder. Second, while on active duty Mr. George was
hospitalized for acute schizophrenic reaction. Third,
the record contains a favorable line of duty
determination dated July 11, 1975. These facts
triggered the provisions of 38 U.S.C. § 311 (1977).
Absent from the evidence extant was clear and
unmistakable evidence to rebut the presumption of
soundness.
Argument in support of revision.
In Russell v. Principi, 3 Vet. App. 310 (1992) (en
banc), the Court established the following
prerequisites for revision of a final VA decision:
(1) Either the correct facts, as they were
known at the time, were not before the
adjudicator or the statutory or regulatory
provisions extant at the time were
incorrectly applied,
(2) The error must be “undebatable” and the
sort “which, had it not been made, would
have manifestly changed the outcome at
the time it was made,” and
(3) A determination that there was CUE
must be based on the record and the law
that existed at the time of the prior
adjudication in question.

106a
Russell, 3 Vet. App. at 313-314. In this case, the Board
failed to correctly apply the provisions of 38 U.S.C.
§ 311 (1977) which required that the VA was to
presume that Mr. George was of sound condition upon
entrance to service if his entrance examination failed
to note any preexisting disabilities or defects. Every
veteran is presumed sound upon entry into service,
except for defects, infirmities, or disorders noted at
entry. 38 U.S.C. § 1111 formerly 38 U.S.C. § 311. VA
can overcome this presumption by clear and
unmistakable evidence that the injury or disease
manifested in service was both preexisting and not
aggravated by service. Id.; see Wagner v. Principi, 370
F.3d 1089, 1096 (Fed. Cir. 2004). “Clear and
unmistakable evidence” means that the evidence
“‘cannot be misinterpreted and misunderstood, i.e., it
is undebatable.”’ Quirin v. Shinseki, 22 Vet. App. 390,
396 (2009) (citing Vanerson v. West, 12 Vet. App. 254,
258-59 (1999)). The burden of proof is a formidable
one: the Board must show by clear and unmistakable
evidence that the veteran’s condition existed prior to
service. 38 U.S.C. § 1111; see Akins v. Derwinski, 1
Vet. App. 228, 231-32 (1991). Whether or not there is
such evidence is a legal determination which the
Court reviews de nova. Bagby v. Derwinski, 1 Vet.
App. 225, 227 (1991). This Court undertakes an
independent examination of whether the facts found
by the Board relating to both whether the condition
existed prior to service and was aggravated by service
satisfactorily rebut the presumption. Id. See
Kinnaman v. Principi, 4 Vet. App. 20, 27 (1993) (the
question becomes whether a doctor’s statement that
there are signs which indicate or suggest that the
condition was present prior to induction and his

107a
opinion that it is probable, but not absolutely certain,
that the condition began prior to service constitute
clear and unmistakable evidence sufficient to rebut
the presumption of sound).
Rebutting the presumption of soundness is a very
serious matter. A rebuttal implies that the personnel
responsible for examining the appellant and deciding
whether to admit him into the military administered
their responsibilities in an utterly incompetent
manner, and it entitles the Board to ignore evidence
clearly in the appellant’s favor. As a consequence,
when the Board attempts to rebut the presumption of
soundness, it carries the burden of proof, it is held to
an exacting standard, and the Court reviews its
decision with great care to make sure that it is
entirely correct. Horn v. Shinseki, 25 Vet. App. 231
(2012).
For its rebuttal of the presumption of soundness
to stand, the Board must have supported its
application of the standard found in section 1111 with
clear and unmistakable evidence. Horn, 25 Vet. App.
at 234. “The Court reviews de novo a Board decision
concerning the adequacy of the evidence offered to
rebut the presumption of soundness, while giving
deferential treatment to the Board’s underlying
factual findings and determinations of credibility.” Id.
at 236 (quoting Miller v. West, 11 Vet. App. 345, 347
(1998)). The Court’s review “extends beyond the
findings of the Board to all the evidence of the record.”
Id. “‘Clear and unmistakable evidence,’ ... has been
interpreted to mean evidence that ‘cannot be
misinterpreted and misunderstood, i.e., it is
undebatable.”’ Quirin v. Shinseki, 22 Vet. App.

108a
390,396 (2009) (quoting Vanerson v. West, 12 Vet.
App. 254, 258-59 (1999)). As the record material cited
above plainly reveals, the evidence in this case does
not clearly and unmistakably indicate that Mr.
George’s schizophrenia was not aggravated by
service.
Conclusion
It is evident that had the Board in its September
2, 1977 decision failed to correctly apply the
provisions of 38 U.S.C § 311 (1977) by failing to afford
Mr. George the benefit of the presumption of
soundness, and because there was not clear and
unmistakable evidence of record in 1977 to rebut both
prongs of the presumption, there would have been a
manifestly different outcome because instead of
denying Mr. George service connected compensation
for his disability from schizophrenia, the Board would
have been required to award him service connected
compensation from October 1, 1975, the day following
his discharge from service.
Mr. George requests that the Board revise the
September 2, 1977 Board decision and direct the VA
to assign a 100% rating for Mr. George’s service
connected schizophrenia from October 1, 1975, the
day following his discharge from service to the
present.

109a
Respectfully submitted,

KMC:cm
cc:

/s/ Kenneth M. Carpenter
Kenneth M. Carpenter (00B)
Counsel
for
Claimant
Kevin R. George
CSS: [REDACTED]

Kevin R. George

M:\VA\GEORGE_KEVIN\2014 REQUEST FOR
REVISION OF THE BOARD’S SPETEMBER 2, 1977
DECISION.wpd

